    Independent Engineering Assessment
                                      of the
                               New Orleans
        Temporary Outflow Canal Pumps



                                     Prepared by




                        Contract No. GS-00F-0005R

                         Parsons Project No. 746558

                               February 27, 2009


This report was prepared for the Department of Defense Inspector General by Parsons
and is based on information provided by the United States Army Corps of Engineers
(USACE), Moving Water Industries (MWI), and the Sewerage and Water Board of New
Orleans (SWB). Parsons prepared this report based on information available in October
2008 and subsequent interviews. The information presented herein provides an
independent engineering assessment of the adequacy of the pump testing of the pump
systems provided by MWI and identification of potential vulnerabilities of the hydraulic
pumping systems to failures for the 40 hydraulic pumping systems installed at 17th Street,
London Avenue, and Orleans Avenue Canals.
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                           Table of Contents


                                TABLE OF CONTENTS
Section                                                                                                               Page

Executive Summary ......................................................................... ES-1

Section 1 - Introduction .................................................................... 1-1
    1.1 Background................................................................................... 1-1
    1.2 Scope ............................................................................................ 1-2
    1.3 Standards and References .......................................................... 1-2

Section 2 – Testing Adequacy Analysis ........................................... 2-1
    2.1 Pump Unit Description ................................................................ 2-1
    2.2 Testing Summary ......................................................................... 2-1
    2.3 Interview Summary....................................................................... 2-2
    2.4 Factory Testing ............................................................................. 2-3
             2.4.1     Factory Testing of the Hydraulic Pumping Units ........................... 2-3
                       2.4.1.1 Findings ............................................................................. 2-4
             2.4.2 Factory Prototype Performance Test .............................................. 2-4
                       2.4.2.1 Flow Measurements ........................................................ 2-4
                       2.4.2.2 Findings ............................................................................. 2-6
             2.4.3 Factory Scaled Model Test .............................................................. 2-6
                       2.4.3.1 Test Setup.......................................................................... 2-6
                       2.4.3.2 Instrumentation ................................................................ 2-7
                       2.4.3.3 Findings ............................................................................. 2-7
             2.4.4     Hydrostatic Tests .............................................................................. 2-8
                       2.4.4.1 Findings ............................................................................. 2-8
    2.5 Field Testing ................................................................................. 2-8
             2.5.1     Performance Testing ........................................................................ 2-8
                       2.5.1.1 17th Street Canal Pump Station ..................................... 2-9
                       2.5.1.2 Orleans Avenue Canal Pump Station .............................. 2-9
                       2.5.1.3 London Avenue Canal Pump Station ............................... 2-9
                       2.5.1.4 Findings ............................................................................. 2-9




                                                   Final Report
                                                      TOC - i                                        February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                              Table of Contents

            2.5.2      Acceptance Testing .......................................................................... 2-10
                       2.5.2.1 London Avenue .................................................................. 2-10
                       2.5.2.2 Orleans Avenue ................................................................. 2-10
                       2.5.2.3 17th Street ........................................................................ 2-10
                       2.5.2.4 Findings ............................................................................. 2-11
            2.5.3      Endurance Testing ............................................................................ 2-11
                       2.5.3.1 Findings ............................................................................. 2-11
   2.6 Laboratory Physical Sump Model Testing ................................. 2-11
            2.6.1      Model Scale....................................................................................... 2-12
            2.6.2 Model Layout and Extent ................................................................. 2-12
            2.6.3      Test Conditions ................................................................................. 2-12
            2.6.4      Instrumentation ................................................................................ 2-13
            2.6.5      Acceptance Criteria .......................................................................... 2-13
            2.6.6      Test Results ....................................................................................... 2-14
            2.6.7      Implementation of the Modifications to the Prototype
                       Structures .......................................................................................... 2-14
            2.6.8 Findings ............................................................................................. 2-14
   2.7 Conclusions .................................................................................. 2-15
            2.7.1 Factory ............................................................................................... 2-15
            2.7.2 Field ................................................................................................... 2-15
            2.7.3      Laboratory ......................................................................................... 2-16

Section 3 - Vulnerability Analysis ..................................................... 3-1
   3.1 Purpose ......................................................................................... 3-1
   3.2 Methodology ................................................................................. 3-2
   3.3 Findings in Brief ........................................................................... 3-3
   3.4 Component Vulnerabilities .......................................................... 3-4
            3.4.1 Findings ............................................................................................. 3-4
   3.5 Operational Vulnerabilities .......................................................... 3-5
            3.5.1 Findings ............................................................................................. 3-5
   3.6 Maintenance Vulnerabilities ........................................................ 3-7
            3.6.1 Findings ............................................................................................. 3-7
   3.7 Pump Capacity Analysis .............................................................. 3-8




                                                     Final Report
                                                       TOC - ii                                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                                   Table of Contents

      3.8 Pump and Support System Analysis .......................................... 3-10
               3.8.1       Mechanical ........................................................................................ 3-10
               3.8.2 Electrical ........................................................................................... 3-11
               3.8.3 Structural........................................................................................... 3-12
               3.8.4 Operational ........................................................................................ 3-12
               3.8.5 Maintenance ..................................................................................... 3-13
      3.9 Conclusions .................................................................................. 3-14
               3.9.1       Mechanical ........................................................................................ 3-14
               3.9.2 Electrical ........................................................................................... 3-15
               3.9.3 Structural........................................................................................... 3-15
               3.9.4 Operational ........................................................................................ 3-15
               3.9.5 Maintenance ..................................................................................... 3-15
      3.10 2008 Performance During Hurricanes Gustav and Ike .............. 3-16
               3.10.1 Hurricane Gustav .............................................................................. 3-16
               3.10.2 Hurricane Ike ..................................................................................... 3-17
               3.10.3 Conclusions ....................................................................................... 3-18

List of Tables
TOC.1     Abbreviations and Acronyms .............................................................................. TOC-iv
1-1       Summary of the General Configures of the Three Pump Stations ................... 1-1
2-1       Predicted Pump Horsepower .............................................................................. 2-8
3-1       Criticality .............................................................................................................. 3-2
3-2       Asset Risk Levels ................................................................................................. 3-2
3-3       Component Vulnerabilities.................................................................................. 3-4
3-4       Operational Vulnerabilities ................................................................................. 3-6
3-5       Maintenance Vulnerabilities ............................................................................... 3-7
3-6       10 Year Peak Discharges Extrapolated from Hydrographs .............................. 3-8
3-7       Installed Hydraulic Drive Pumping Capacities .................................................. 3-9
3-8       Total Stated Capacity of Additional Pumps ....................................................... 3-9
3-9       Total Calculated Pump Station Capacity vs. Total Required ........................... 3-9
3-10      London Avenue ICS - Hurricane Gustav Outfall Canal Closure Activities........ 3-20
3-11      17th Street ICS - Hurricane Gustav Outfall Canal Closure Activities ............... 3-21
3-12      London Avenue ICS - Hurricane Ike Outfall Canal Closure Activities .............. 3-22
3-13      17th Street ICS - Hurricane Ike Outfall Canal Closure Activities ..................... 3-23
3-14      Orleans Avenue ICS - Hurricane Ike Outfall Canal Closure Activities ............. 3-24

List of Figures
2-1       Pump Unit Diagram.............................................................................................. 2-1
2-2       Testing Timeline ................................................................................................... 2-2
2-3       Flow Measurement Points .................................................................................. 2-5
2-4       Head-Discharge Curves Design .......................................................................... 2-5



                                                         Final Report
                                                           TOC - iii                                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                       Table of Contents


                           Abbreviations and Acronyms
ANSI           American National Standards Institute
API            American Petroleum Institute
ASCE           American Society of Civil Engineers
ASME           American Society of Mechanical Engineers
CCTV           Closed circuit television
cfs            Cubic feet per second
DoDIG          Department of Defense Inspector General
ERDC           Engineer Research and Development Center
FEM            Facilities & Equipment Maintenance
GAO            United States Government Accountability Office
GHz            Gigahertz
gpm            Gallons per minute
HI             Hydraulic Institute
HPO            Hurricane Protection Office
HPU            Hydraulic Power Units
Hz             Hertz
ICS            Interim Closure Structure
IP             Internet protocol
kVA            kilovolt Ampere
mph            Miles per hour
MTBF           Mean time between failures
MWI            Moving Water Industries
NEC            National Electrical Code
NFPA           National Fluid Power Association
OIM            Operations Instruction Manual
OSC            Office of Special Counsel
psi            Pounds per square inch
psig           Pounds per square inch gauge
PTC            Performance Testing Code
QA             Quality Assurance
QAR            Quality Assurance Report
rpm            Revolutions per minute
SCADA          Supervisory Control and Data Acquisition
SWB            Sewerage and Water Board
U.S.           United States
USACE          United States Army Corps of Engineers
USBR           United States Bureau of Reclamation

                                     Final Report
                                       TOC - iv                 February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                            Executive Summary


Executive Summary
After Hurricane Katrina struck New Orleans on August 29, 2005, the U.S. Army Corps of
Engineers (USACE) immediately started rebuilding the canal walls along the three main
drainage canals and implementing additional flood protection for the City of New
Orleans. The mission was to complete these additional flood protection features by June
2006 in anticipation of the 2006 hurricane season. USACE installed three temporary
pumping structures with floodgates at the outfall of the three main drainage canals to
Lake Pontchartrain. The gates were designed to remain open under normal operating
conditions and be closed during a storm event when storm surge from Lake Pontchartrain
might exceed safe levels. With the gates shut, the storm surge from Lake Pontchartrain
would be prevented from entering the drainage canals, though the pump systems would
still allow for the discharge of stormwater being pumped by the New Orleans Sewerage
and Water Board (SWB). A total of 40 large capacity hydraulic pumps were installed by
USACE in 2006 to assist with the removal of stormwater from the three main drainage
canals into the lake when the gates were closed. Additionally, 19 direct drive pumps
were installed in 2007. This ensured the canal water elevations were kept at “safe” levels
as established by USACE geotechnical engineers. Approximately 16,600 cubic feet per
second (cfs) (7.5 million gallons per minute [gpm]) in pumping capacity was designed,
procured, constructed, and tested in approximately 21 months.
Moving Water Industries (MWI) provided the major equipment for the hydraulic
pumping systems. A USACE inspection team was dispatched to MWI to observe and
record the equipment assembly and testing at the factory prior to shipment in order to
facilitate the objectives within the timeframe allowed. During this period of observations,
questions were raised by a whistleblower relative to observed results and testing protocol
for some of the various startup and performance tests of the MWI hydraulic pumping unit.
These questions led to formal investigations by USACE, the Department of Defense
Inspector General’s (DoDIG’s) Office, and the U.S. Government Accounting Office
(GAO), each of which issued reports on their findings. Subsequent to the release of those
reports, questions continued to be raised by the Office of Special Counsel (OSC)
regarding the adequacy of the pump equipment testing and vulnerability to failure in the
event of a hurricane; therefore the OSC recommended that a thorough and impartial
investigation be conducted by independent professional engineers.
In response to a request for engineering services by the DoDIG, Parsons assembled a
team of professional engineers experienced in pump station design, operations,
maintenance, and testing requirements This team’s objective was to provide an
independent engineering assessment of the pump testing adequacy and to identify
potential vulnerabilities of the temporary hydraulic pumping systems at 17th Street Canal,
London Avenue Canal, and Orleans Avenue Canal. In order to address these two aspects
of the temporary pump stations’ readiness, Parsons assembled two separate but
collaborative teams. One team was assembled for the testing adequacy evaluation and the
other team was assembled for the vulnerability analysis.
The testing adequacy analysis was conducted through a progression of intelligence
gathering. This effort started with a review of existing test data and reports that had been


                                      Final Report
                                         ES - 1                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                            Executive Summary

developed to date. After reviewing the available data, the team conducted site visits at the
New Orleans temporary pump stations at 17th Street Canal, London Avenue Canal, and
Orleans Avenue Canal. During this site visit, interviews with USACE project officials
and operations staff at the Hurricane Protection Office (HPO) and the New Orleans SWB
Director were conducted. While in New Orleans, the team was presented with the testing
methodology conducted by the USACE Engineer Research and Development Center
(ERDC). Details of the assumptions and protocols employed by ERDC during the model
testing were discussed comprehensively with ERDC. Following the site visit to New
Orleans, the team conducted interviews with individuals from the pump manufacturer,
MWI in Deerfield Beach, Florida. The Parsons team toured the facilities to observe the
testing configurations and fabrication methods employed by MWI.                 Additional
engineering data was gathered from MWI to facilitate assessment of the factory tests.
Once the MWI factory visit was completed, the USACE Jacksonville District Quality
Assurance (QA) team was interviewed to obtain their first hand observations during the
hydraulic pump fabrication and testing. The QA team substantially confirmed the
observations documented in the DoDIG and GAO reports. Finally, the Parsons team met
with the whistleblower at the local USACE Palm Beach Gardens office to obtain first
hand information on the testing of the pumps. The team was presented with a detailed
account on the testing and observation procedures.
The vulnerability progression was similar to the testing adequacy approach including all
of the site visits and interviews discussed above. In addition, this intelligence gathering
effort included a supplemental trip to New Orleans to discuss the sequence of events
associated with the acceptance testing and a more in-depth discussion regarding the
maintenance program. The vulnerability analysis inherently involves the judgment of
professional engineers using the data provided, supplemented by experience to render an
opinion of system vulnerability. This effort is detailed in Section 3 of this report which
describes the systematic process of identification and categorization of vulnerabilities.
The areas studied were mechanical, electrical, structural, operational, and the
maintenance program.
After the aforementioned data was analyzed and the conclusions documented the Parsons
team reviewed performance data obtained during Hurricanes Gustav and Ike. This
approach helped the team maintain maximum objectivity in analyzing pre-Gustav records.
The information reviewed in preparing this report included prior reports, data previously
gathered by the DoDIG including documentation submitted by a whistleblower to the U.S.
Office of Special Counsel, information Parsons requested during the course of the
assessment, and interviews Parsons requested in their assessment plan.
The findings and conclusions of the Parsons team are as follows:
   1. Based on the information provided and the interviews performed, the Parsons
      team found that there were issues with the factory testing and changes to testing
      procedures by USACE that took place during the testing process. Further
      investigations also show issues raised by the whistleblower have been rectified in
      the field and the pumps re-tested for full functionality. Therefore, it is the Parsons
      team’s opinion that the hydraulic pump systems have been adequately tested for
      their intended purpose. Contract administration and compliance issues were

                                      Final Report
                                         ES - 2                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                           Executive Summary

      addressed by others under previously issued reports and are not part of the scope
      for this effort.
   2. The second part of the report deals with identifying potential vulnerabilities to
      failure of the 40 hydraulic pumping systems installed. It is the opinion of the
      Parsons team that given the project objectives, the selection of hydraulic pumping
      systems was appropriate. These systems are designed for use where rapid
      deployment is desired and the need to accommodate flexible site configurations is
      necessary.       While hydraulic pumping systems inherently require more
      maintenance than other less flexible and longer lead time pumping systems, these
      hydraulic systems exhibit no higher level of vulnerability than other similarly
      installed systems with similar complexity, as long as the recommended inspection
      and maintenance activities occur. The temporary nature of this installation also
      affects the vulnerability analysis. For example, corrosion protection measures for
      a temporary facility are different than those for a permanent installation, since the
      design life of the temporary structure is much less. It is the opinion of the Parsons
      team that as long as the permanent facilities proceed according to schedule and a
      thorough inspection and maintenance program is followed for the temporary
      facilities, there are no immediate vulnerabilities to catastrophic failures with the
      hydraulic pumping systems or their supporting systems.
   3. On August 31, 2008, Hurricane Gustav made land fall, with a hurricane force of a
      Category 2 storm, the Louisiana coast experienced torrential rain and high winds
      of approximately 100 miles per hour (mph), which generated a storm surge in
      Lake Pontchartrain of 4.8 feet. Records show that the USACE canal teams
      received orders to close the canal gates at the temporary outflow canal pump
      stations at the 17th Street and London Avenue canals, cutting off the canals
      outflow to Lake Pontchartrain in anticipation of the storm surge associated with
      the high winds. Pumps were put into service and the two canals were successfully
      kept at the safe water levels. The Orleans Avenue gates were not shut as the water
      levels were at a safe level.
      On the morning of September 12, 2008, Hurricane Ike made land fall as a
      Category 3 wind force generating a storm surge in Lake Pontchartrain of
      approximately 5.2 feet. The coast experienced rain and winds of around 25 mph
      and at the temporary pump stations, the USACE canal team received orders to
      close the canal gates cutting off the canals’ outflow to Lake Pontchartrain. Again
      pumps were put into service and the two canals were successfully kept at the safe
      water levels. The Orleans Avenue gates were not shut as the water levels were
      below its designated safe level.
      It is the opinion of the Parsons team that the temporary hydraulic pumping
      systems performed successfully, keeping the water levels of the canals at the
      determined safe level for both hurricanes.




                                      Final Report
                                         ES - 3                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                  Introduction



Section 1 – Introduction
1.1    Background
Rainwater and other sources of stormwater from the City of New Orleans are collected
via a system of interior canals and pumped by the New Orleans SWB into three main
drainage canals located at 17th Street, London Avenue, and Orleans Avenue. These three
canals historically discharged water by gravity feed to Lake Pontchartrain as part of the
local flood control system.
On August 29, 2005, Hurricane Katrina blew across the City of New Orleans with winds
in the Category 3 range of 127 mph. Tidal surge caused Lake Pontchartrain to rise to a
level that not only prevented gravity discharge but also caused the levee protection
system along the outfall canals to fail resulting in the well documented catastrophic
flooding of New Orleans in 2005. In an effort to mitigate future occurrences similar to
that experienced in Katrina, USACE was authorized to design and construct a protection
system along each of the three main drainage canals. The protection system includes
reinforcement of the levees, construction of an operable gate structure (flood gates) to
protect against storm surge and the installation of temporary pumping systems.
USACE procured and installed 40 large capacity hydraulic pumping systems to provide
pumping capacity at the 17th Street Canal, London Avenue Canal, and Orleans Avenue
Canal. Each hydraulic pumping system consists of the pumping unit, hydraulic oil
supply and return lines, and water discharge piping. The 60-inch diameter water pump
unit contains a Hydraulic Power Unit (HPU) with a diesel engine and hydraulic pump.
The supporting systems include the structural support system, electronic data and
communication system, the electrical support system, and the mechanical support system.
 Permanent pump stations are scheduled to be constructed by 2013. When the newly
constructed flood gates are closed, blocking the normally occurring gravity flow, the
temporary pump systems pump the collected stormwater from the drainage canals to
Lake Pontchartrain. Approximately 16,600 cubic feet per second (cfs) (7.5 million gpm)
in pumping capacity was designed, procured, constructed, and tested in approximately 21
months. Table 1-1 below is a summary of the general configuration of the three
temporary pump stations:
  Table 1-1—Summary of the General Configuration of the Three Pump Stations
   Pump Station         Hydraulic Pump       Direct Drive Pump        Portable Pump
17th Street Canal              18                     11                     20
London Ave. Canal              12                      8                      –
Orleans Ave. Canal             10                      –                      –


MWI was selected by USACE to provide the major equipment for the hydraulic pumping
systems. In order to facilitate the objectives within the timeframe allowed, USACE


                                     Final Report
                                         1-1                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                  Introduction

decided to send an inspection team to MWI, to observe and record the equipment
assembly and testing that occurred at the factory prior to shipment of the equipment to
the sites in New Orleans. During this period of observations at the pump manufacturer,
questions were raised relative to observed results and testing protocol for some of the
various startup and performance tests of the hydraulic pumping systems provided by
MWI. These questions, raised by a whistleblower, led to a formal investigation by
USACE, the DoDIG’s Office, and the GAO, each of which issued reports on their
findings. Subsequent to the release of those reports, questions continued to be raised
regarding the pumping equipment.

1.2    Scope
Parsons was retained in response to the questions raised subsequent to the
aforementioned reports and the recommendation by the OSC that a thorough and
impartial investigation be conducted by independent professional engineers. The main
objective was to obtain an outside opinion from a professional engineering company to
resolve lingering and additional questions regarding the capability of the pumping
systems.
The overall objectives of the assessment are to review the adequacy of testing of the
temporary pumping systems and to identify and assess vulnerabilities of the hydraulic
pumping systems to failures in the event of a hurricane (specifically a 10-year, 24-hour
rainfall event to which USACE designed the systems). This assessment does not include
the direct-drive, diesel-driven pumping systems supplied by others, the portable pumps at
17th Street temporary pump station, or the floodwall and levee reinforcement protection.

1.3    Standards and References
Industry practice for the design and testing of large flood control pumps and pumping
stations typically follows the Hydraulic Institute (HI) standards for various types of
pumps. These standards are printed by the American National Standards Institute (ANSI)
and are reviewed on a minimum 5-year cycle as required by changes in technology and
updates, and by canvassing of engineers, equipment manufacturers, and end-users. The
Pump Intake Design Standard (ANSI/HI 9.8, 1998) also addresses when the acceptance
criteria for physically modeling the pump station sump and approach canal can be relaxed.
MWI staff advised the Parsons team that the codes and standards used by their company
for the design, manufacture, and assembly of their pumping systems are the ANSI/HI
standards for vertical pumps, the American Society of Mechanical Engineers (ASME)
Performance Testing Code (PTC) 8.2, Centrifugal Pumps and the ASME B31 set of
process piping standards.
The types of pumping systems used at the temporary pump stations are unique in the
sense that there is not a specific HI standard, which covers this patented, hybrid
submersible axial, and mixed-flow propeller pump configuration. The Parsons team
concluded that the most applicable classification is the vertical pump classification as
described by HI. Applicable ANSI/HI standards for the design and testing of the water
pumps include, but are not limited to the following list of 2002 editions:


                                     Final Report
                                         1-2                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                  Introduction


       2.1 – 2.2       Vertical Pumps for Nomenclature and Definitions
       2.3             Vertical Pumps for Design and Application
       2.4             Vertical Pumps for Installation, Operation and Maintenance
       2.6             Vertical Pump Tests
       9.8             Centrifugal and Vertical Pump Intake Design
Other applicable standards used in this report are:
       National Electric Code (NEC) – 2008 Edition
       ASME Code B31 for Standard of Pressure Piping
       ASME Code 31.3 for Standard for Process Piping
       American Society of Civil Engineers (ASCE) 7-02 Minimum Design Loads for
       Building and Other Structures (Applicable at the time of design)




                                       Final Report
                                           1-3                        February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                   Testing Adequacy Analysis


Section 2 – Testing Adequacy Analysis
2.1    Pump Unit Description
Each hydraulic pump unit consists of two main components. The first component is a
drive unit that consists of a prime mover (a Caterpillar diesel engine), which drives a
double vane hydraulic pump (made by Denison ) rated for 3,200 pounds per square inch
(psi) complete with an oil reservoir. This whole first component is labeled the HPU for
the purposes of this report. (Refer to Figure 2-1.) The second component, the MWI water
pump, consists of an encased impeller, which is driven by a Rineer hydraulic motor. This
hydraulic motor, which is surrounded by the pumped water, turns a short vertical shaft
connected to the stainless steel axial-flow impeller and is connected to the HPU by a twin
set of hydraulic hoses and pipes.
The temporary pumping facilities at each canal are similar in configuration, varying in
total capacity from 9200 cfs at 17th Street, 5200 cfs at London Avenue to 2200 cfs at
Orleans Avenue. There are a total of 40 of the large hydraulic pump units distributed
among the three temporary pumping facilities.




                   HPU

                                             Water Pump


                           Figure 2-1—Pump Unit Diagram

2.2    Testing Summary
The tests performed by MWI, USACE, and ERDC on the HPU pump equipment can be
divided into three different categories—factory, field, and laboratory. A time line of
these activities is shown in Figure 2-2.
The factory testing included testing of each of the individual HPUs, performance testing
of the water pumps using both a scaled model and full-sized prototype pump, and
pressure testing of the full-sized prototype pumps.


                                      Final Report
Parsons                                   2-1                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Testing Adequacy Analysis




                                                      Mar-06

                                                      May-06




                                                      Dec-06


                                                      Mar-07

                                                      May-07




                                                      Dec-07
                                                      Jan-06
                                                      Feb-06




                                                      Jun-06




                                                      Oct-06
                                                      Nov-06

                                                      Jan-07
                                                      Feb-07




                                                      Jun-07




                                                      Oct-07
                                                      Nov-07

                                                      Jan-08
                                                      Aug-06
                                                      Sep-06




                                                      Aug-07
                                                      Sep-07
                                                      Apr-06




                                                      Apr-07
                                                      Jul-06




                                                      Jul-07
   PUMP STATION                  Activity

   17th Street Canal     Factory Testing
                         Shipped to Site
                         Field Acceptance Testing
                         ERDC Model Testing

   London Av enue Canal Factory Testing
                         Shipped to Site
                         Field Acceptance Testing
                         ERDC Model Testing

   Orleans Av enue Canal Factory Testing
                         Shipped to Site
                         Field Acceptance Testing



                                      Figure 2-2—Testing Timeline


The factory testing took place at the manufacturer’s facilities in Deerfield Beach, Florida
and Sebastian, Florida. The field testing was performed as the pumps were installed at
the three temporary pump stations in New Orleans and consisted of performance,
acceptance, and endurance testing. The laboratory testing performed by ERDC involved
scaled physical models of the approach channels and pump sump areas that were used to
characterize the approach flow hydraulics and the hydraulics of the intakes to the pumps.
This testing took place at the ERDC facilities in Vicksburg, Mississippi. It should be
noted that the factory, field, and laboratory testing did not occur sequentially, but they
were performed concurrently as the equipment was being manufactured and the stations
were being designed and constructed.
The Parsons team reviewed the pump test reports provided and found the reports to be
complete and detailed, containing comprehensive tables and figures.

2.3      Interview Summary
Review of the documentation helped the team develop questions for onsite interviews
with USACE and MWI personnel. The interviews and site visits were conducted by
Parsons with personnel from the DoDIG office present and were organized with the
objectives of understanding the chronology and extent of testing performed, from the
initial factory testing through field acceptance testing.
The Parsons team visited the USACE Hurricane Protection Office (HPO) in New Orleans
from November 4 to November 7, 2008. During those meetings, details of the design of
the pumping facilities, the laboratory testing performed at ERDC, and the testing
requirements (which were to be fulfilled by the manufacturer were discussed). The three
temporary pump facilities were visited and the team witnessed startup and approximately


                                                    Final Report
Parsons                                                 2-2                 February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                   Testing Adequacy Analysis

one hour of pumping at the 17th Street station where all but one of the large hydraulic
pumps were operating (one pump was out of service for maintenance).
A visit to the pump manufacturer, MWI, took place November 18, 2008. During that
meeting, the details of the factory testing were discussed and a tour of the manufacturer’s
Deerfield Beach, Florida, test and assembly facilities followed. On November 20, 2008,
the Parsons team met with members of the USACE inspection team who were onsite at
the pump manufacturer’s site during the factory testing of the equipment.
On January 28, 2009, the Parsons team met with the whistleblower at the Palm Beach
Gardens USACE office and conducted an interview. During the meeting, information on
the extent of tests carried out was discussed together with discussions on pump
component performance. Information on factory test methods, outcome of factory tests,
and site tests were gathered and recorded at the meeting.
The following subsections summarize the findings of the documentation review,
interviews, and site visits.

2.4    Factory Testing
Details of the HPU testing, scaled model, and pump prototype testing performed at the
manufacturer’s facilities in Deerfield Beach and Sebastian were obtained from the reports
provided by the DoDIG and interviews conducted with MWI personnel, the USACE
HPO in New Orleans, USACE inspectors from the Jacksonville District and the
whistleblower.

Typically, these types of tests are not witnessed by the purchaser as they are identified
and resolved by the fabricator before the inspection effort. Furthermore, witnessed
events are typically limited to the startup and commissioning of a pump station except in
cases where the specifications require witnessed pump and driver testing events.

2.4.1 Factory Testing of the Hydraulic Pumping Units

The equipment specifications called for the HPUs to be pressure tested, both statically
and dynamically, at the factory. This testing would provide assurances the units would
be operable when they were installed at the site and minimize the commissioning time
normally experienced for similar equipment. The testing program originally called for
each unit to be tested statically for 90 minutes at design pressure and dynamically for 15
minutes at maximum speed, pressure, and temperature.
In early factory tests, the original cams (66&42) of the Denison pumps on the HPUs were
found to be underperforming. These were replaced with 66&50 cams but the performance
requirements were still not met due to their lack of ability to continuously operate at the
design pressure of 3,200 psi. Dennison replaced all the cams in the HPUs with 72&45
cams at no cost to the government. The available data indicates that all HPUs onsite
today have the 72&45 cams installed and have proven to operate successfully. MWI
recommended operating the pumps with a design pressure of 3,200 psi.
As documented in other reports, some component failures occurred during the factory
tests. The subject components were repaired or replaced and tests resumed.

                                      Final Report
Parsons                                   2-3                           February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                     Testing Adequacy Analysis

Recognizing the critical schedule constraints to have the pumps on site, ready to operate
in the hurricane season, delivery schedules and tests were modified during the course of
the testing. Test requirements were modified to drop initial performance testing of each
of the water pumps and test all the HPUs for a minimum of 3 hours at full speed, fully
loaded. Records that track each equipment number through the testing process show all
40 HPUs went through a 3-hour acceptance test at the factory. Each unit under test was
connected to a hydraulic water pump in a water tank and tested for its maximum driving
pressure. One HPU experienced engine abnormalities and did not pass the 3-hour
acceptance test. This unit was however shipped to the field without the Government’s
approval of testing. USACE made a decision to allow corrections to be made to the unit
in the field rather than sending it back to the factory. This unit passed the field acceptance
test and logged 25 running hours.
2.4.1.1        Findings
While there are standards related to the hydraulic performance of pumps of this type,
there is no industry standard for the factory testing of the drive units and pumps during
the manufacturing process. The testing performed early in the manufacturing process of
the HPUs proved beneficial in that it identified assembly and performance abnormalities
in the drive units that significantly reduced the time spent on acceptance and
commissioning after the pumps were installed onsite. Abnormalities encountered with
the HPU configuration were identified and corrected, resulting in more reliable pieces of
equipment. The abnormalities encountered during the performance tests of the HPUs
were addressed. Recognizing critical test items and delivery dates were at risk, the
USACE officials modified the test procedures in the course of production but did
additional field testing to ensure pump operation and endurance.
2.4.2      Factory Prototype Performance Test
A factory prototype test was also performed (November 2006) to measure the
performance of a full-scale prototype pump and compare it to the design requirements.
This performance test was performed and observed by USACE. The report, which was
reviewed for this evaluation, is titled “Data Report on Factory Tests of Discharge and
Total Dynamic Head of MWI Pumps used on New Orleans Outfall Canals,” December
2006.
2.4.2.1    Flow Measurements
The ERDC report indicates numerous difficulties in getting consistent readings with the
test setup to measure flow. Due diligence was exercised by the investigator to minimize
the error related to velocity differences in the discharge piping at the point of flow
measurement by taking extensive cross-sectional measurements and using accepted
standards to correct the data (United States Bureau of Reclamation [USBR] Water
Measurement Manual). The flow measurement points are shown in Figure 2-3. The
collected data was corrected using standard procedures to account for the differences in
test operating speed so comparisons could be made with the contract requirements and a
previous test noted as “Measured MWI Analysis-288 rpm.”




                                       Final Report
Parsons                                    2-4                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                     Testing Adequacy Analysis




                                             Figure 2-3—Flow Measurement Points

                            USBR 10-pt Velocity Traverse. D = pipe diameter. The dimensions are
                            extracted from the “Data Report on Factory Tests of Discharge and Total
                            Dynamic Head of MWI Pumps Used on New Orleans Outfall Canals.”
The prototype test data collected was then plotted on the curve of the previously collected
MWI prototype data, as shown in Figure 2-4, with a difference found in the slope of the
curves. The Measured ERDC Analysis – 288 revolutions per minute (rpm) test curve is
parallel but lower than the Measured – MWI Analysis – 288 rpm, suggesting there may
be a difference in the method of velocity calculations.

                           20
                           19                                           Design

                           18                                           Measured-ERDC Analysis-288 RPM

                           17                                           Measured-MWI Analysis-288 RPM
  Total Dynamic Head, ft




                           16                                           Model Test

                           15
                           14
                           13
                           12
                           11
                           10
                           9
                           8
                           7
                           75000     80000      85000     90000      95000       100000     105000       110000
                                                           Discharge, GPM


                                         Figure 2-4—Head-Discharge Curves Design

                                                         Final Report
Parsons                                                      2-5                           February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                   Testing Adequacy Analysis

Figure 2-4 shows head-discharge curves design, measured with ERDC analysis and with
MWI analysis, the discharge is based on the average of all 4 traverses.
2.4.2.2    Findings
The size of these pumps necessitated a very large quantity of water in order to run a full
test. The water was pumped from a sump and was continuously recirculated through the
test set up for the duration of the test. The sump size available at the manufacturer’s
facility made it difficult to achieve the desired conditions to obtain the flow data, since
the smaller sump size resulted in turbulence, aeration, and elevated water temperatures
for the recirculated water, all of which can adversely impact the results. Because of these
types of abnormalities in testing pumps of this size, it is not uncommon within the
industry to gather the performance data from a scaled model rather than from a full-sized
pump. It is the opinion of the Parsons team that results from the factory prototype pump
test are not reliable to accurately predict flow rates.
2.4.3      Factory Scaled Model Test
At the request of the USACE HPO in New Orleans, ERDC was requested to observe and
assist with testing a scaled model (with a ratio of 1:3.75) of the MWI pumps. This test
was performed to compare the measured discharge total dynamic head of the scaled
model pump with the design values for the prototype pumps, and then extrapolate that
data to predict the performance of the prototype pumps. The report reviewed for this
portion of the evaluation was “Draft Data Report on Factory Model Tests of Discharge
and Head of MWI Pumps Used on New Orleans Outfall Canals,” September 2007.

2.4.3.1    Test Setup
The following are the details given in this report that were checked with ANSI/HI
standards contained in ANSI/HI 2.6-2000:
 1. Discharge pressure tap: The location of the pump discharge pressure tap is
    consistent with the dimensions required by ANSI/HI Figure 2.85, page 29.
 2. Flow meter location: Distance from pump discharge head fittings is greater than the
    minimum required by ANSI/HI Table 2.14, page 26 for a throat/inlet diameter ratio
    of 0.718 therefore acceptable.
 3. Throttling Valve Location: The distance from the Venturi to the valve is more than
    sufficient per ANSI/HI Table 2.16, page 27.
 4. Return to Sump: The discharge is below the water surface to prevent aeration.
    Turbulence generated against the bottom can not be determined.
 5. Interior Sump Box: The report states that the interior sump box was based on
    acceptable sump design in the ANSI/HI standards. Assuming a model pump bell of
    25.1 inches (full-size bell diameter of 7.85 ft divided by the model scale of 1:3.75),
    the length of the sump box was shorter and the width was slightly narrower than
    that recommended in ANSI/HI 9.8-1998 Standard for Pump Intake Design. The
    potential impact of the deviations is that some swirl may form in the intake that
    could influence the head or flow measurements, but such influence would be minor.


                                      Final Report
Parsons                                   2-6                           February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                   Testing Adequacy Analysis

2.4.3.2    Instrumentation
 1. Mercury manometer: A common instrument used in the industry for accurate
    differential pressure readings and is identified in this report for measuring static
    head.
 2. Venturi flow meter: This is a typical, accurate flow measuring device of sufficient
    dimensions to give accurate readings. There is no indication in ERDC’s report as to
    the differential pressure device used to take readings. The report indicated Alden
    Research Lab had performed a calibration of the instrument, but the calibration
    report was not included with ERDC’s report nor was the date of calibration noted.
 3. Tachometer: A laser, hand-held tachometer was used and readings checked against
    a second tachometer. No calibration data were noted for either instrument; however,
    the readings from each instrument checked against each other.
 4. Torque Measurement: This is also a common means of measuring input power.
    Calibration data is included in the report but no original document with the date of
    calibration was included. ANSI/HI requires torque meters be calibrated within
    certain intervals. It is the opinion of the Parsons team that the omission of this data
    probably will have minimal affect on the results.
2.4.3.3    Findings
The test setup and instrumentation used for the scale model were consistent with
ANSI/HI standard tests, with the exception of the size of the sump box as noted above.
The documentation provided for the test did not include all the detailed data described in
ANSI/HI standards, page 14, “Summary of Necessary Data on Pumps to be Tested,” but
the details are referenced in the ERDC report.
A check of the data recorded in the report showed the model pump efficiency to be
calculated correctly. The model test data is then extrapolated to what can be expected
from the prototype based on the affinity laws. The efficiency calculations assumed an
exponent of 0.26 for the formula. This conservative and acceptable number is related to
the casting roughness of the model compared to the prototype. The report did not
include the predicted horsepower requirements for the prototype, but it has been
calculated and added to Table 2-1 below.
The predicted horsepower is important to determine the requirements for the hydraulic
drive system and sizing of the engine power supply for the full-size equipment. Data on
the efficiency of the hydraulic drive system was provided by MWI. The Parsons team
used the efficiency data, as published by the component manufacturers and compared this
data to the required HP. The results of this evaluation verify the adequacy of the
components.




                                      Final Report
Parsons                                   2-7                           February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                        Testing Adequacy Analysis



                              Table 2-1—Predicted Pump Horsepower
                                              Prototype     Prototype
                            Prototype Q a                                Prototype
                                             TDH b at 288     pump
                              based on                                     pump
               Test                           rpm based     efficiency,
                            affinity laws,                              horsepower,
                                              on affinity    Percent
                                 gpm                                        HP
                                                laws, ft        (%)
                 10              64914           22.54          74.4        497
                 11              81174           18.41          78.5        483
                 12              85059           16.95          78.3        467
                 13              96448            12.1          74.4        399
                 14             100683            9.26           68         348
                 15             104367            7.59          64.1        313
          a
              Q is flowrate
          b
              TDH is Total Dynamic Head


        Ref: Draft Data Report on Factory Model Tests of Discharge and Head of MWI
        Pumps Used on New Orleans Outfall Pumps, Table 3, September 2007.
2.4.4          Hydrostatic Tests
The water pump units were tested hydrostatically for 90 minutes to check for leaks. The
process included raising the pressure in the high-pressure plumbing (hose) and the pump
head to 3200 psi while restraining the propellers with wood blocking to induce the test
pressure. Hydrostatic test data from a Jacksonville QA report indicates that all static
tests conducted on the pump units successfully met the specified requirements.
2.4.4.1        Findings
All of the pump casings passed these tests. Records show some pumps tested were not
initially successful and that these pumps went through corrections and further testing.
The types of malfunctions noted in the reports during equipment testing are considered
normal in an industrial manufacturing environment. The Parsons team’s opinion is that
the pumps were conclusively tested to an acceptable operational standard.

2.5     Field Testing
The field testing of the pumps was divided into performance, acceptance, and endurance
testing. All field testing occurred at the three pump stations in New Orleans.
2.5.1          Performance Testing
Performance testing was performed in the field to measure the flow capacity of the
pumps during operation. Parsons conducted a review of each field test by comparing the
test data to the calculated performance of the system. The calculations were completed
by Parsons using the installation drawings to determine pipe lengths, number of elbows,
and elevations. Parsons did not conduct a detailed evaluation due to limited actual
installed pump system head and flow data that would allow verification of the theoretical
system curves.


                                             Final Report
Parsons                                          2-8                       February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                    Testing Adequacy Analysis

2.5.1.1    17th Street Canal Pump Station
The report reviewed was “Draft Data Report, Field Study of Pump Discharge and Head at
17th Street Canal Interim Pumping Station,” May 2007.
The flow determination of the field tests is dependent on the operating head of the system.
In general, the system curve (head versus flow) for pumps that have a low operating head
is quite flat. Each pump was fitted with piezometers to measure the head produced by
each pump. No reading was taken on the manifold so it did not facilitate comparison of
system pressure with the system flow readings from the acoustic flow meters on the
manifold. The pump curve performance noted in the report does not include the
operating rpm that the accuracy could not be checked when plotted on the system curve.
It is the opinion of the Parsons team that these results of the field testing for the 17th
Street Canal temporary pump station does not provide confirmation of the capacity of the
pumps, but does provide an approximate capacity that is acceptable.
2.5.1.2    Orleans Avenue Canal Pump Station
The report reviewed was “Draft Data Report, Field Study of Pump Discharge and Head at
Orleans Avenue Canal Interim Pumping Station,” May 2007.
The performance data collected for Pumps W5-1 and W5-3 that were on the same three
pump manifold indicates which pump discharge head was approximately 2 feet off the
theoretical system curve. The performance data collected for Pumps W5-4 and W5-5 that
were on a two pump manifold identified which of the air vacuum breakers did not seal
and allow for full prime of the siphons. Therefore, the pumps ran at a higher head than
would be expected. On this basis, this test provides approximate data. It is the opinion of
the Parsons team that these results of the field testing for the Orleans Avenue Canal
Interim Pump Station do not provide confirmation of the capacity of the pumps, but does
provide approximate capacities of the pumps that is acceptable.
2.5.1.3    London Avenue Canal Pump Station
The reference report was “Draft Data Report, Field Study of Pump Discharge and Head
at London Avenue Canal Interim Pumping Station,” July 2007.
The pump curves plotted were from the model test and prototype test data corrected from
188 rpm. Data plot matches the corrected model test data curve, but the head was
significantly higher than the theoretical system curve. However, data from three different
measuring systems did not correlate with any of the curves. Some of this may be due to
the lack of pressure head readings on the manifold where the flow readings were taken.
It is the opinion of the Parsons team that these results of the field testing for the London
Avenue Canal temporary pump station do not provide confirmation of the capacity of the
pumps, but does provide approximate capacities of the pumps that is acceptable.
2.5.1.4    Findings
The field performance tests at each of the pump stations used at least two methods of
flow measurement, but the London Avenue station appears to have used four methods.
One of the methods used on all three stations was piezometer head readings transferred to
the prototype test performance curve to determine flow. This data method is approximate


                                      Final Report
Parsons                                   2-9                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                    Testing Adequacy Analysis

since there was no way to accurately determine impeller rpm. Thus, the field tests can be
considered as representing the approximate capacity these stations can produce.
Two Rineer motors experienced pulsating activity while running the pumps on site.
Investigations revealed there was a problem with inadequate stiffness of the springs in the
motors. Once those springs were replaced, the pulsating issue was resolved. All of the
Rineer motors onsite today have the new springs installed. Inspection of these motors
should be part of the normal maintenance activities at the stations so if any wear is noted,
it can be addressed.
2.5.2      Acceptance Testing
The field acceptance tests for each complete system included running at least 2 hours at
an engine speed of 1,800 rpm and a hydraulic pressure of 3,200 psi. Steady-state
conditions, engine rpm, engine jacket temperature, hydraulic system oil pressure and
temperature, leakage (required: none), and canal level were monitored. These tests were
conducted on each hydraulic pumping system by the contractor with oversight by
USACE. USACE documented any deviations from the testing parameters including
pump speeds, run times and temperatures.
The documentation showed all abnormalities previously identified in the pump
manufacture and installations were corrected prior to the acceptance tests. All HPUs
were fitted with new cams on site in July 2006 prior to acceptance tests. Reports by
USACE showed that acceptance inspections started in June 2007, and included punch
lists for the drive units noting the physical abnormalities to be corrected. Most
abnormalities were corrected by September, 2007, with a few minor issues still noted in
the punch list for the drive units. A review of the acceptance test results of the pumps
follows.
2.5.2.1    London Avenue
Acceptance tests for the London Avenue Canal pumps started in July 2007. The test
results indicate that fully loaded run tests were performed on 12 pumps at the site. Out of
the 12 pumps tested, 9 pumps passed the initial acceptance tests. Functional
abnormalities such as oil leaks, high oil temperature, and overheating gear oil caused the
3 pumps to fail the initial tests. These abnormalities were corrected and the 3 pumps then
passed the running test as shown on the pump acceptance log, dated November 2007.
2.5.2.2    Orleans Avenue
Acceptance tests for the Orleans Avenue Canal pumps started in June, 2007. Functional
abnormalities, including a damaged seal, leaking bearing o-ring and underwater oil leaks,
occurred with 3 pumps. These abnormalities were corrected by August, 2007 and the
pumps were re-tested. All passed the running test as shown on the pump acceptance log,
dated November, 2007.
2.5.2.3    17th Street
Acceptance tests for the 17th Street Canal pumps started in August, 2007. The test logs of
September, 2007 indicate 10 out of 18 pumps underwent the fully loaded test and all 10
pumps passed. No functional abnormalities occurred with these ten pumps. The
remaining 8 pumps were tested by September, 2007 with all 8 pumps passing. Quality

                                      Final Report
Parsons                                  2 - 10                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                   Testing Adequacy Analysis

Assurance Reports show that due to low canal levels, some pumps were run at reduced
speeds of 1400 rpm and some pumps were tested for shorter periods of 1.5 hours during
pump tests. These pumps were, however, also deemed to have passed the acceptance tests
by the USACE Quality Assurance Team because performance was demonstrated upon
reaching 45 minutes of steady state conditions.
2.5.2.4    Findings
All 40 pump systems were finally accepted. It is the opinion of the Parsons team that
there was due diligence in the inspection and correction of any functional abnormalities
throughout the testing. Abnormalities encountered were normal to the commissioning
and startup of this type of equipment.
2.5.3      Endurance Testing
An endurance test was performed on a drive unit at the London Canal. This test used a
HPU mounted to the bridge upstream of the flood gate with a spare pump mounted to the
temporary sheet pile structure. This temporary sheet pile structure was installed as a
contingency plan pending completion of the temporary pump station. During the initial
attempts to run the test, functional abnormalities with the drive unit had to be corrected.
Once those corrections were made, the HPU successfully completed a total of 37 hours,
29 minutes of operation.
2.5.3.1    Findings
The evaluation of the endurance test report showed that there were three attempts to run
the endurance test. Typical startup abnormalities were encountered with the first two
attempts. On the third attempt the pump successfully performed without incident.

2.6     Laboratory Physical Sump Model Testing
A pump of this size and type can be sensitive to the approach flow hydraulics, and
keeping with ANSI/HI standards, the HPO engaged the USACE ERDC in Vicksburg, MS,
to conduct a physical model study of the Interim Pumping Stations at both the London
Avenue Canal and 17th Street Canal. No physical model study was conducted of the
Orleans Avenue Canal’s pump station sump, as ERDC determined the modifications
developed for the London Avenue Canal would be effective at the Orleans Avenue
Canal’s temporary pump station because the approach canal layouts were similar. The
intake modifications which were developed for the London Avenue station were
replicated at the Orleans Avenue station.
Two reports were developed for the physical model studies. The first report, “Physical
Model Study of Interim Pumping Station at London Avenue Canal, New Orleans,
Louisiana,” dated January 2008 covers the study performed for the London Avenue
Canal station. The second model study covered the 17th Street Canal station and is titled
“Physical Model Study of Interim Pumping Station at 17th Street Canal, New Orleans,
Louisiana,” January 2008. The model studies were used to evaluate the potential for
surface and subsurface vortices, flow pre-swirl entering the pumps, and the velocity
distribution at the pump impeller location. The Parsons team reviewed the model studies
with ERDC in New Orleans in November 2008.


                                      Final Report
Parsons                                  2 - 11                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                    Testing Adequacy Analysis

The review of the report and meeting are summarized in the following subsections.
Typically, the sump model studies are conducted as part of the design of the station and
HI states that for stations of this size and criticality they are required. Due to the very
rapid timeline associated with this installation, the conventional timelines associated with
physical models of pumps were not able to be accommodated; therefore, ERDC
conducted the model study after the pumps were installed and operating at the site. The
modifications that were developed as a result of the model testing were then subsequently
installed at the London Avenue and Orleans Avenue pump stations.
2.6.1      Model Scale
The selection of model scale is based on minimizing the fluid viscous effects (Reynolds
number) and surface tension effects (Weber number). The model scale that was selected
for these pumps, 1:15, resulted in a pump bell Reynolds number of 6 x 104, which meets
the HI criterion. This scale also satisfied internal ERDC criterion. No mention was made
in the report of whether a 1:15 scale model met the Weber number criterion; however,
Parsons team calculations determined that it was acceptable.
2.6.2      Model Layout and Extent
The models for the two stations included all pumps (hydraulic and direct drive), pump
platforms, and support structures that were in the water. The model pump bells simulated
the prototype pump bells. Approach channels, 1,100 feet for London Avenue, 840 feet
for 17th Street, were simulated in the models. The canal widths of 360 feet and 240 feet
respectively for the London Avenue and 17th Street Canals make the approach channels
somewhat short, but since the canals are relatively straight upstream of the pump stations
and an overflow weir was used at the upstream end of the models, the model length is
acceptable. The only issue that was noted was the flow over the model weir caused
surface turbulence that in fact could inhibit the formation of surface vortices which may
occur in the prototype, resulting in less conservative results.
Flow calibration of the individual model pumps followed generally accepted practice.
Canal bathymetry (a study of underwater depths), to measure depths of the canal, was
developed using gravel. This was used to simulate the canal roughness since the canal in
the area of the pump station was protected with rock; therefore using gravel to simulate
roughness was a reasonable approach.
2.6.3      Test Conditions
Since there are no test standard requirements to assist with determining the critical pump
operating combinations, professional judgment was used. ERDC decided to conduct
three test conditions, which were as follows: (1) all pumps operating (hydraulically
driven and direct drive); (2) all hydraulic drive pumps operating; and (3) all direct drive
pumps operating. In addition, for the 17th Street station, a fourth condition was tested,
which consisted of all the MWI hydraulically driven pumps and the portable pumps on
the interim gated structure, which were providing an additional 1400 cfs capacity. More
typical operations when fewer pumps are operating were not simulated with the models,
but it was the opinion of ERDC that the most extreme operating condition is when the
stations are running at full capacity. This may be a non-conservative opinion since the

                                      Final Report
Parsons                                  2 - 12                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                    Testing Adequacy Analysis

worst approach flow hydraulics can occur when fewer pumps are operating. For example,
the water surface was turbulent during the model tests which could have inhibited the
formation of surface vortices. With less pumps operating, the water surface in the model
will be more tranquil which is conducive to the formation of surface vortices. With more
pumps operating, the approach velocities are higher which may wash out subsurface
vortices. Again, with less pumps running, the approach velocities will be less and may
allow for subsurface vortices to become stronger and more stable.
2.6.4      Instrumentation
The instrumentation used in the model studies followed normal laboratory procedures
and ANSI/HI standards. The velocity fluctuation data at the pump impeller location was
not taken (discussed below). Swirl meters were installed according to ANSI/HI standards
and flow velocities were taken at several locations which were selected based on high
flow pre-swirl readings. This is normal practice.
2.6.5      Acceptance Criteria
The acceptance criterion was discussed at length, with ERDC accepting a relaxed HI
standard due to “infrequent pump operating conditions” (see ANSI/HI standards criteria
for “infrequent pump operating conditions” as stated in the ERDC January 2008 Report).
The infrequent operation conditions that the HI discusses are usually associated with a
station operating under abnormal conditions. During normal operation the station should
meet the stricter criteria. The interpretation used by ERDC is that since these stations
only operate infrequently, the use of the relaxed standards for “infrequent pump operating
conditions” was appropriate. In addition, ERDC only conducted tests at extreme flow
conditions and more frequent operating conditions were not analyzed. It is unknown
whether the pump stations would meet the stricter criteria for more normal operations.
Since a scale model is nonconservative related to the formation of surface or subsurface
vortices due to viscous effects, applying the more relaxed HI standard associated with
infrequent operation could result in vortices entering the pumps that have a low enough
pressure to result in vibration, cavitation, and bearing wear.
One HI criterion related to measuring time-varying velocities at the pump impeller
location was not evaluated due to time limitations and the fact that ERDC rarely takes
these measurements. The time-varying velocity measurement can pick up excessive
velocity fluctuations that could result in flashes of cavitation and bearing wear. However,
research has indicated that exceeding the criterion does not normally result in significant
pump performance issues.
HI also states that a few tests with the final design should be conducted at 1.5 Froude
scaled flow rates. The Froude number is defined as the characteristic velocity divided by
the water wave propagation velocity. This will compensate for any possible scale effects
on free-surface vortices. However, when it is determined the flow patterns are too
distorted to provide a reasonable analysis, it is not necessary to perform these tests. In
this case these tests were not performed for this reason.
The ERDC report states that one rationale used for accepting the relaxed standards is based
on satisfactory prototype test results of a one day test which was conducted in the field in
April, 2007. During these field tests, the formation of surface vortices were observed. A

                                      Final Report
Parsons                                  2 - 13                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                    Testing Adequacy Analysis

scale model test was conducted with the same operation scenario and indicated that both
surface and subsurface vortices formed and that flow pre-swirl occurred in excess of
acceptable levels.
It should be noted that experience indicates that almost all the hydraulic issues associated
with poor approach flow hydraulics do not cause instantaneous abnormalities. Typically,
the effect of surface and subsurface vortices, along with pre-swirl conditions, results in
vibration damage, cavitation damage, and bearing wear over a period of time of use.
2.6.6      Test Results
Based on the modified HI performance criteria, it is Parsons team’s opinion that the
model studies were conducted in accordance with accepted engineering standards.
Modifications to the sump designs were developed using the models. For the London
Avenue station, the modifications to reduce swirl consisted of the installation of a sump
floor cone with 4 vanes that were attached to the pump bells and hung below the bells to
within a maximum of 6 inches above the sump floor. In addition, a surface vortex grate
was installed horizontally just below minimum water level to address submerged vortex
concerns. These same modifications were installed at the Orleans Avenue pump station.
For the 17th Street pump configuration, the modifications identified by the model
included lengthening the pump bays (for west and east side 6 pump platforms) and
installing grating at the entrance to turn the flow into the pump bays. No modifications
were developed to control submerged vortices since they were considered weak.
However, experience shows the vortices should be monitored and the pumps inspected
according to a regular maintenance program to ensure that there are no signs of impeller
or bearing deterioration.
2.6.7      Implementation of the Modifications to the Prototype Structures
It is the Parsons team’s understanding that the modifications identified during the model
testing have been installed at the London Avenue station and duplicated at the Orleans
station. For the 17th Street pump station, the modifications that were developed on the
model were not implemented in the field due to the extent of the modifications identified.
There is ample redundancy at this station and other pumps can be brought on line if there
are abnormalities with some of the pumps. The redundancy also allows for the operating
sequence that rotates the cycle time on the pumps.
2.6.8      Findings
The sump model studies for the London Avenue and 17th Street Canals’ interim pump
stations generally met ANSI/HI standards. The performance criteria that were not
evaluated or were relaxed may have an impact on the performance of the pumps;
however, it is the opinion of the Parsons team that the modifications that were developed
in the model should minimize any effect, especially if a thorough inspection and
maintenance program is followed.
Not constructing and installing the recommended modifications at the 17th Street station
may result in performance issues, such as cavitation, vibration, and bearing wear. It is
recommended that the pumps be inspected for unusual wear as part of a regular
maintenance program. If there are signs of deterioration, then the recommended

                                      Final Report
Parsons                                  2 - 14                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                     Testing Adequacy Analysis

modifications from the model study could be implemented to improve pump performance
and longevity.
Although the Orleans Avenue station, which includes the modifications developed for the
London Avenue station, should perform satisfactorily, this station has no backup system
(i.e., direct drive pumps nor excessive flow capacity). To confirm the design, a model
study could be conducted to verify the effectiveness of the modification. As an option,
the pumps at this station could be monitored for vibration and pulled and inspected for
wear as part of a regular maintenance program.

2.7     Conclusions
It is the Parsons team’s opinion that the scale pump testing at the factory, and the sump
model testing for the 17th Street and London Avenue Canal Interim Pump Stations, are
adequate for their intended purpose. The scale pump test should be considered the
definitive test. No additional pump testing is required. For the Orleans Avenue Canal
Interim Pump Station, a pump sump physical model study was not conducted as specified
by HI.
2.7.1      Factory
The testing performed on the pump systems is in line with industry standards.
Abnormalities identified during the testing, both at the factory and in the field, were
satisfactorily addressed. Additional testing was performed in the field to verify the pump
performance.
Due to the accelerated procurement schedule, acceptance testing at the factory was
started prior to the manufacturer being able to troubleshoot the equipment set up,
resulting in the onsite inspectors observing an increased number of incidents with the
equipment. Usually the manufacturer has had time to set up a system and perform a
mock test to ensure that the equipment will perform as anticipated when the inspectors
arrive. The testing of each drive unit at the factory proved very valuable in that
abnormalities in the cams and other mechanical components were able to be identified
and corrected before the field testing occurred, greatly reducing the amount of time
normally associated with commissioning and acceptance testing.
Full-size testing of pumps of this size is not usually required, as a model is normally used
to obtain performance parameters for such large pumps. The testing of each individual
pump in the factory is above what is normally specified, too, since all the pumps are
manufactured to the same specifications and will, therefore, have little change in
performance from pump to pump.
With regard to pump capacity, it is the Parsons team’s opinion that the use of the scaled
model test, extrapolated to predict the performance of the prototype pump is a better
representation of the pump capacity than the prototype pump testing results that were
witnessed by ERDC.
Despite the anomalies witnessed during these factory tests, the Parsons team’s opinion is
that the factory testing was adequate for its intended purpose and the response to
correcting the failures indicates diligence was exercised. Additionally, the field testing to
verify satisfactory performance supersedes the events witnessed at the factory.

                                       Final Report
Parsons                                   2 - 15                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                   Testing Adequacy Analysis

2.7.2      Field
The acceptance and endurance testing in the field was performed in general conformance
with industry standards. The anomalies experienced during the acceptance testing are
consistent with the types of anomalies normally experienced during the startup phase of
permanent pump stations designed and constructed for USACE. Correction and retesting
is typically administered until the witnessed anomalies are eliminated and there are no
other anomalies experienced.         The acceptance testing documentation indicates
consistency with this industry standard.
2.7.3      Laboratory
The laboratory testing was in general conformance with the applicable ANSI/HI
standards. The report discusses the acceptance criteria used for the evaluation of the test
results. The temporary pump stations at the subject canals are unique in that their
required use is only during those design rainfall events during which Lake Pontchartrain
experiences storm surge. This interpretation versus the more strict interpretation of
“infrequent pump operating conditions” has a material effect on the determination of
whether the observed vortices during the model tests are acceptable or not. Regardless
of the interpretation, the consequences of the approach hydraulic conditions observed are
typically time dependent for any substantive mechanical degradation. Moreover, these
tests are typically conducted in advance of construction to provide an opportunity to
modify pump conditions before the construction activities. The emergency response for
construction did not lend itself to this typical sequencing.




                                      Final Report
Parsons                                  2 - 16                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis



Section 3 – Vulnerability Analysis
3.1    Purpose
An assumption in a vulnerability analysis is that mechanical systems are inherently
vulnerable to breakdowns. The purpose of this effort is not to predict the absence of
future breakdowns, nor to predict timing of future breakdowns, but rather to identify any
conditions that would indicate extraordinary and unacceptable vulnerabilities leading to
flooding of areas to be protected by the temporary pumping facilities. Equipment failures
are inherent. Excessive equipment failures and lack of ability to accommodate normal
failures are unacceptable vulnerabilities. The Parsons team’s investigation indicates that
planning, design, equipment procurement, and construction for project delivery were
conducted under extreme conditions. The planning, design, procurement, construction,
installation, and acceptance of over 16,600 cfs in pumping capability in a period of
approximately 21 months required substantial deviation from normal procurement, design,
and construction protocols. Substantially witnessed abnormalities of the pumping
systems were observed during the fabrication and assembly processes. As discussed in
previous sections these types of tests are not typically witnessed by the purchaser as they
are identified and resolved by the fabricator before the inspection effort. Therefore, the
observations by the witnesses during fabrication are considered in-progress observations.
Witnessed underperformance and the resolution of those conditions were considered in
this report. The Parsons team’s vulnerability analysis focuses on the final configuration
and performance records of the system as it currently exists at all three canal outfall
locations, which is a better indication of actual vulnerability of the system.
The vulnerability analysis was conducted to identify extraordinary conditions of the
hydraulic pumping systems and their supporting systems that might indicate a
vulnerability of failure above and beyond those that are inherently associated with
electro-mechanical systems as applied under conditions of similar risks and consequences
of failure. Special consideration was given to conditions that might lead to under-
performance of the system during emergency response events. The scope and
assumptions for the vulnerability analysis is as follows:
   •   The temporary pump stations are designed for a 5- to 7-year service life because
       they will be replaced with permanent pump stations by 2013.
   •   It is assumed that USACE will maintain the canals at their designated safe level in
       coordination with the SWB.
   •   The pump stations are manned during a storm and hurricane event.
   •   This vulnerability analysis does not include analysis of risks related to canal
       levels, flooding risks, flood walls integrity, and any other risk factors that do not
       relate to the outfall canal temporary hydraulic pumping systems.
   •   Design and construction information was obtained from specifications, design and
       construction drawings, and information received during interviews as outlined
       below in Section 3.2. Methodology.


                                      Final Report
Parsons                                   3-1                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                              Vulnerability Analysis

3.2    Methodology
This section outlines the methodology used to analyze potential vulnerabilities. The
Parsons team conducted this assessment by evaluating the available documents and
conducting interviews with the appropriate agencies and individuals with regard to the
pump material/component assessment, structural considerations, electrical and
instrumentation systems, and hydraulic considerations. After the interviews and site
visits, the Parsons’ team met to develop a list of “what ifs.” The objective of this
brainstorming meeting was to develop a list of threats to the hydraulic pumping systems
and their supporting systems with the goal of determining potential vulnerabilities of the
system under analysis. Through this process, the Parsons team prepared a database of
information that was analyzed to determine the degree of vulnerability utilizing common
engineering practice. This process takes into account both the category of vulnerability
and the category of criticality of the asset or condition being analyzed. (Refer to Table 3-
1, shown below.) The distinction of these two elements are summarized and illustrated as
follows:
   •   Vulnerability Category: The degree to which the element being analyzed is
       vulnerable. This category has three degrees of measure—extreme, moderate, and
       slight, which are labeled a, b, and c respectively.
   •   Criticality Category: The degree to which the element is considered critical to
       operational readiness. This category has three degrees of measure—high,
       medium, and low, which are labeled 1, 2, and 3 respectively.
                                  Table 3-1—Criticality
                   Categories of             Categories of Criticality
                   Vulnerability          1 – High    2 – Medium     3 – Low
                a - Extreme                  1a            2a           3a
                b - Moderate                 1b           2b            3b
                c - Slight                   1c            2c           3c

The Asset Risk Level is therefore determined as shown below in Table 3-2:
                               Table 3-2—Asset Risk Levels
                                    Asset Risk Levels
           1a           2a           1b        High-Level Priority items to address
           1c           2b           2c        Mid-Level Priority but Agency may accept
           3a           3b           3c        Low-Level Priority acceptable to Agency

The following actions were conducted to evaluate the vulnerabilities of the outfall
temporary hydraulic pumping systems and their support systems.
   •   Conducted assessments from early November 2008 through December 2008. The
       Parsons team reviewed specifications written for the procurement of the pumps,
       the construction documentation, factory tests records, and performance
       requirements.




                                      Final Report
Parsons                                   3-2                                February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                         Vulnerability Analysis

   •   Interviewed the USACE project officials on November 4, 2008, at the New
       Orleans District, and the canal operation staff.
   •   Visited the sites from November 4 to 5, 2008, of the three temporary pump
       stations at 17th Street, London Avenue, and Orleans Avenue, and examined
       components of the pumps, pump drives, electrical distribution, and control
       including the hydraulic driven gates.
   •   Observed the hydraulic pumps running at the 17th Street pump station on
       November 4, 2008, and interviewed operational staff.
   •   Visited the New Orleans SWB Pump Station Number 6, on November 5, 2008, to
       observe operations and to interview operational staff. Interviewed the SWB
       Superintendent and staff.
   •   Interviewed ERDC on November 6, 2008, on the modeling of the pump station
       and attended a presentation by ERDC followed by a question and answer
       discussion on the science of his methods of modeling.
   •   Visited the factory facilities of the pump manufacturers MWI on November 18,
       2008. Met with production management and the chief mechanical engineer and
       conducted interviews with each individual.
   •   Interviewed the USACE Jacksonville District inspecting officials on November
       20, 2008, regarding the pump testing procedures. We discussed their observations,
       their records, and their opinions of the testing of the pumps and pump drives.
   •   Held brainstorming sessions between November 8 and 28, 2008, with Parsons
       professional engineering team regarding the vulnerabilities to failure of the
       temporary hydraulic pump systems and their supporting systems.
   •   Conducted follow up interviews with the USACE staff in New Orleans on
       December 2 and 3, 2008. This session focused on the USACE equipment
       preventive maintenance program in place and additional discussions on the
       acceptance testing timeline.
   •   Interviewed the USACE whistleblower on January 28, 2009, regarding the pump
       testing procedures. Discussions were held regarding the whistleblower’s
       observations, records and opinions of the pump and pump drive testing.

3.3    Findings in Brief
The vulnerability analysis was conducted considering structural, mechanical, electrical,
maintenance, and operational aspects of the hydraulic pumping system including its
support systems. As stated in subsection 3.1, Purpose, this effort is intended to identify
what, if any, extraordinary vulnerabilities exist for the hydraulic pumping systems and its
supporting systems. In summary, it is the Parsons team’s opinion that the hydraulic
pumping systems and their support systems do not exhibit unusual or extraordinary
vulnerabilities. Table 3-3 indicates the vulnerabilities identified and their assessed risk
level as determined through the previously described methodology and Table 3-1 and
Table 3-2.


                                      Final Report
Parsons                                   3-3                           February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                            Vulnerability Analysis

3.4     Component Vulnerabilities
3.4.1       Findings
   This section identifies any components of the temporary pump stations and their
   support systems that are vulnerable to failure before, during, and after a storm event.
                            Table 3-3—Component Vulnerabilities
   Source or Cause of                 Affected Pump Stations           Assessed Categories
  Potential Vulnerability      17th Street     Orleans     London   Criticality Vulnerability
Protection of exposed hoses          x             X        x           3             b
engines of hydraulics,
electrics and batteries from
wind borne debris,
projectiles
Power poles next to diesel           x                                  3             b
tanks
Elbow fittings Aeroquip -            x             X        x           2              c
leak issue
Unsuitable CCTV camera               x             X        x           3              c
mountings
Vapor proof lighting in the          x             X        x           3              c
pump area and under the
pump deck
Unpainted hydraulic oil              x             X        x           2              c
piping
Unsuitable pole mounted              x             X        x           3              c
light fixtures
Criticality: 1 – High; 2 – Medium; and 3 – Low
Vulnerability: a – Extreme; b – Moderate; and c – Slight
Note: Refer to Tables 3-1 and 3-2 for more information.



   •    Protection of exposed hoses of hydraulics. Electrics and batteries from wind
        borne debris and projectiles: The team identified that these components are
        vulnerable, but they are not detrimental to the overall operation of the pump
        stations. This vulnerability is rated low on the scale of priorities for improvement.
   •    Power poles next to diesel tanks: A power pole was found erected next to one
        of the main fuel storage tanks. The pole carries a 4,160 volt step-down
        transformer to feed the 17th Street Canal temporary outflow pump station. The
        fuel tank is in the path of the pole falling radius. The team rated this issue as a low
        criticality, but it has an average rating of vulnerability.
   •    Aeroquip elbow fittings leaks: This item is inserted into the vulnerability matrix
        with the intention that this issue be kept in view until resolved by the
        manufacturer.
   •    Unsuitable closed circuit television (CCTV) camera mountings: The camera
        mountings are attached to the poles using large hose clips. These hose clips are
        not hurricane rated. U-bolts are typically used to secure the cameras subject to

                                           Final Report
Parsons                                        3-4                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                             Vulnerability Analysis

        high wind conditions. The concern here is that the cameras could come loose in a
        hurricane event and damage critical parts of the hydraulic pumping system.
    •   Vapor proof lighting fixtures in the pump area and under the deck are not
        impact resistant: The electrical lighting was examined, and it was noted that the
        lighting fixtures underneath the engine platforms were of the vapor proof
        fluorescent type fixtures. These fixtures are for wet areas, but they are not
        designed for hurricane force conditions. Therefore, they could potentially fall and
        destroy critical components of the pump.
    •   Unpainted hydraulic oil piping: This item is inserted into the vulnerability
        matrix with the intention that this issue be kept in view until resolved by painting
        protective coatings on the piping. It was determined that the pipe manufacturer
        test coupons as well as the mill test certificate American Petroleum Institute (API)
        listing showed that the pipe supplied exceeded Grade B pipe strength values.
        Parsons conducted an independent calculation of the piping thickness
        required. This analysis was based on the requirements as outlined in ANSI B31,
        31.3 as applicable for 3,200 psi and a corrosion value of .02 inches which
        translates to 4 or 6.67 microns per year for a 5- and 3-year project life
        respectively. It is the Parsons team’s opinion that this rate of corrosion is
        consistent with the industry standards used to predict corrosion rates given the
        existing exposure. Nevertheless, it is also the Parsons team’s recommendation
        that the pipes receive appropriate protective coatings to ensure that corrosion is
        controlled throughout the life of the temporary pump station.
    •   Unsuitable pole-mounted light fixtures: The pole-mounted light fixtures along
        the bridges and walkways designated Type F6 in the construction drawings are
        not designed for hurricane force conditions; therefore, they could fall and destroy
        critical components of the pump.

3.5     Operational Vulnerabilities
3.5.1        Findings
    This section identifies parts of the operation and process that are vulnerable to the
    successful operation of the temporary pump stations and their support systems.
                            Table 3-4—Operational Vulnerabilities
   Source or Cause of                 Affected Pump Stations           Assessed Categories
  Potential Vulnerability      17th Street     Orleans     London   Criticality Vulnerability
No Alarms on the hydraulic           x             X        x           3             c
drives for over pressure
Orleans Avenue Canal pump                          X                    2             c
station sump design
17th Street Canal pump               x                                  2             b
station sump design
Criticality: 1 – High; 2 – Medium; and 3 – Low
Vulnerability: a – Extreme; b – Moderate; and c – Slight
Note: Refer to Tables 3-1 and 3-2 for more information.


                                            Final Report
Parsons                                         3-5                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis

   •   No alarms on the hydraulic drives for over pressure: The team observed that
       there were no hydraulic oil over-pressure alarms. There are pressure safety valves
       in place to relieve the hydraulic oil over pressure but there are no alarms or visual
       indication when this safety valve is activated. This issue is rated as a low priority
       item (3c) and appears to be acceptable to the agency.
   •   Orleans Avenue Canal Pump Station Sump Design: No physical model study
       was conducted of the Orleans Avenue Canal’s pump station sump. ERDC’s
       opinion was that the modifications developed at London Avenue would be
       equally effective at Orleans Avenue. The modifications developed at London
       Avenue were installed at Orleans Avenue. Although the station should have been
       modeled to confirm the design that was developed at London Avenue, the
       potential abnormalities that can occur are likely to be a maintenance issue.
       However, since the station was not modeled to confirm the design, the
       vulnerability for this station is 2C.
   •   17th Street Canal Pump Station Sump Design: Due to the accepted
       performance standards (see ANSI/HI standards criteria for “infrequent pump
       operating conditions” as stated in the ERDC January 2008 Report) for the model
       sump test of the approach flow to the pump station, there is the potential for
       accelerated wear on the pump impeller and bearings. However, at this station the
       modifications recommended by ERDC were not implemented. Not constructing
       and installing the recommended modifications might result in performance issues,
       such as cavitation damage, vibration, and bearing wear. These abnormalities will
       likely develop over time. Since the pumps have been operated during the last two
       hurricanes, it is recommended that a pump from each side of the canal be checked
       and assessed for damage to the impeller and bearings operations and maintenance
       as part of an ongoing maintenance plan. If abnormalities arise, the design
       modifications to the sump should be implemented to improve flow to the pumps.
       The vulnerability for this station is 2B.




                                      Final Report
Parsons                                   3-6                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                               Vulnerability Analysis


3.6      Maintenance Vulnerabilities
3.6.1        Findings
This section identifies maintenance components and processes of the temporary pump
stations and their support systems that will enhance successful performance of the
stations.
                            Table 3-5—Maintenance Vulnerabilities
   Source or Cause of Potential             Affected Pump Stations         Assessed Categories
          Vulnerability               17th Street    Orleans   London   Criticality  Vulnerability
Viscosity change and contamination          x              x    x           3              c
of hydraulic oil
Corrosion of hydraulic pipe fittings        x              x    x           3              c
and structure that are sumerged
Degradation of impeller due to                             x    x           2              c
vortices
Degradation of impeller due to              x                               2             b
vortices
Erosion of canal bottom & wall due          x              x    x           3              c
to high water velocities at pump
intake & discharge
Criticality: 1 – High; 2 – Medium; and 3 – Low
Vulnerability: a – Extreme; b – Moderate; and c – Slight
Note: Refer to Tables 3-1 and 3-2 for more information.

    •    Viscosity change and contamination of hydraulic oil: Over time the viscosity
         of the hydraulic oil will change due to pump running and age of the oil. This is
         rated a low priority; however, there should be a maintenance routine included in
         the maintenance program.
    •    Corrosion of hydraulic pipe fittings and parts of the structure that are
         submerged: Since the pipe fittings and the structure that support the pumps are
         of different materials, bi-metallic corrosion is inevitable. The corrosion of these
         components will cause failures over time and routine subaqueous checks should
         be included in the maintenance program.
    •    Degradation of impeller due to vortices: Vortices can cause premature wear of
         the impeller and bearings due to cavitation. Minimizing pumping operations at
         levels where vortices will occur is recommended. Consideration should be given
         to the cost versus benefit of conducting a subsurface monitoring program to
         ensure that excessive wear of the impellers has not occurred. Additionally, close
         monitoring of the pumps during operation to determine if vibrations, not
         previously observed, begin to occur. Should unusual vibrations occur, the
         removal of pumps for inspection and bearing evaluation may be necessary.
    •    Erosion of canal structure due to high velocities: Erosion of canal structure
         may occur during actual high discharge events. A periodic subsurface monitoring
         system will mitigate this risk. These subsurface monitoring activities should be


                                             Final Report
Parsons                                          3-7                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis

        conducted in such a way as to allow for restorative activities before the wet
        season.

3.7     Pump Capacity Analysis
The design rainfall event serves as the basis of this analysis to determine the required and
calculated pumping capacity for the 17th Street, London Avenue, and Orleans Avenue
temporary pump stations. For the purpose of this report, this event is noted as the design
rainfall event. These temporary pump stations have each been constructed relatively near
the outlet of each canal into Lake Pontchartrain, and upstream of a new temporary gate
structure. Existing SWB pump stations pump stormwater from urban drainage areas into
the respective canal that serves the area. During Hurricane Katrina, the water level in
Lake Pontchartrain rose due to storm surge and the effective pumping capacity of the
SWB pump stations is decreased. The floodgates near the end of each of the canals are
intended to protect the canals from excessive water stage levels while the temporary
pumping stations are intended to pump the water from the drainage canals to Lake
Pontchartrain. This arrangement maintains safe canal water levels and avoids failure of
the protective levees on either side of the canals. These safe water levels were
established by the USACE geotechnical engineers and are unique to each canal. This
analysis is based on the maintenance of these safe water levels during the design rainfall
event.
Simulated hydrographs were developed by USACE for each pump station indicating that
the peak flow rates for the design rain event do not exceed 6 hours. Table 3-6 shows the
required pumping capacities for each temporary pump station were extrapolated using the
provided hydrographs for each canal.
        Table 3-6—10-Year Peak Discharges Extrapolated from Hydrographs
                              10-Year Peak Discharge          10-Year Peak Discharge
  Canal Pump Station
                                       (cfs)                       (cfs rounded)
         17th Street                   7,673                            7,700
       London Avenue                   4,961                            5,000
       Orleans Avenue                  1,883                            1,900
Pumping capacities at each temporary canal pump station were determined using the
following assumptions:
   •    Performance is based on the prototype water pump curve corrected to 288 rpm at
        the Rineer water pump.
   •    Field operating friction losses in the pump discharge and manifold piping using
        the Hazen-Williams friction factor C equals140 and varying K factors to establish
        losses due to elbow friction, entrance losses, and manifold friction losses.
   •    The approximate maximum flow anticipated from the hydraulic drive pumps at
        each location is based on operation at the canal safe water level that provides the
        lowest static head.
Installed pumping capacities of the hydraulic pumps at each temporary canal pump
stations and their respective installed conditions are shown below in Table 3-7.


                                      Final Report
Parsons                                   3-8                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                         Vulnerability Analysis



               Table 3-7—Installed Hydraulic Drive Pumping Capacities

                Location                       Orleans         London           17th Street
                                               Avenue          Avenue
Safe Water Level Elevation (ft)                       8            5                   6
Top of Discharge Pipe Elevation                     11           11                  12
Static Head                                           3            6                   6
Total Number of Hydraulic Pumps                      10           12                  18
Calculated Discharge per Pump (cfs)                 220          216                 215
Total Calculated Capacity (cfs)                    2,201        2,594               3,864
Although analysis of the direct drive pumping units at both the 17th Street Canal and
London Avenue Canal and the portable pumping units at the 17th Street Canal are outside
the scope of this report, the stated capacity of these additional pumps is as shown in
Table 3-8.

                Table 3-8—Total Stated Capacity of Additional Pumps
            Pumps                    17th Street (cfs)         London Avenue (cfs)
            Direct                         4,000                        2500
           Portable                        1400
             Total                         5400                         2500
Therefore, based on the above listed and calculated capacity of the hydraulic pumps and
the provided capacity of the direct drive and portable pumps, the capacity of the pumping
stations has been determined to meet or exceed the required pumping capacity as
indicated during the design rainfall event and is summarized in Table 3-9.

      Table 3-9—Total Calculated Pump Station Capacity vs. Total Required
                                               London Avenue            Orleans Avenue
       Items           17th Street (cfs)
                                                   (cfs)                     (cfs)
 Hydraulic Pumps             3,864                    2,594                    2,201
Direct Drive Pumps           4,000                    2,500                     0
  Portable Pumps             1,400                         0                    0
   Total Capacity            9,264                    5,094                    2,201
   Total Required            7,673                    4,961                    1,883




                                       Final Report
Parsons                                    3-9                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                            Vulnerability Analysis



3.8.1      Mechanical
The hydraulic pump system consists of the diesel engine drive unit, the Denison
hydraulic pump, the hydraulic pipe system, and the Rineer hydraulic water pump. The
following is a discussion regarding each of these principle elements:
Diesel Engines: The diesel engines powering the hydraulic drive pumps, as
manufactured by Caterpillar, are adequate for the specified operating conditions. It is the
judgment of the Parsons team that these engines and identical models have been
adequately tested to perform reliably in the service intended. The operating speed of
these engines at 1800 rpm is consistent with current industry standards for diesel engines
serving the water resource industry; therefore, it is a system with a high precedent.
Denison Hydraulic Pump: In general, pump hydraulic drive systems (including the
hydraulic motors mounted on the pumps and the hydraulic pumps mounted on the diesel
engines) have been sized to operate at or near the limits of their capabilities to produce
torque and horsepower for pump operation under specified conditions. Field test results
indicate that horsepower and torque capacity are slightly less than specified and than
indicated in factory tests. However, those results are within tolerances allowed for field
testing by the ANSI/HI. To avoid excessive maintenance and premature failure of the
hydraulic drive systems, the hydraulic motor manufacturer has recommended a normal
operating pressure of 3,200 pounds per square inch gauge (psig) during normal and
continuous operation. To date, the hydraulic drive systems have performed as required
and without abnormal maintenance or failures during Hurricane Gustav and other storm
events.
During the site visit and through interviews with the USACE maintenance organization,
it was discovered that the Aeroquip fitting on the Denison pump is experiencing
intermittent leakage, in the form of a fine mist. It is our understanding that this leakage is
due to a flange interface detail that is currently being addressed between USACE and the
manufacturer. Resolution to this issue is encouraged.
Hydraulic Pipe System: The existing piping system that was used to deliver pressurized
hydraulic oil to the Rineer hydraulic water pump was reviewed for adequacy. This
analysis resulted in a confirmation that the pipe wall thickness meets or exceeds the
requirements as stated in the ASME, B31, 31.3 as applicable for 3,200 psi hydraulic oil.
The piping system as witnessed during the site investigations was unprotected from
corrosion. It is our understanding that an effort is currently in place to coat the piping in
order to avoid excessive corrosion.
Rineer Hydraulic Motor: This unit is used to drive the pump and receives its thrust via
the hydraulic oil delivered from the Denison hydraulic pump. As discussed in Section 2,
Testing Adequacy Analysis, the Rineer motor experienced a pulsing effect during the
acceptance testing period. The replacement of the springs appears to have corrected this
anomaly and the system has performed satisfactorily since.




                                       Final Report
Parsons                                   3 - 10                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                         Vulnerability Analysis

3.8.2      Electrical
The electrical distribution (for all three pump stations, the standby generators, and the
associated switches that control the distribution for the hydraulic pumps) were checked
for reliability and compliance. The pump stations are powered from the local utility
(Entergy) distribution 100 kVA transformers, with a secondary voltage of 240 volts,
single phase, 60 Hertz (Hz) on the east bank and west bank of the canals. The electrical
construction drawings were reviewed and electrical load calculations performed indicated
the following: the electrical load for the 17th Street Canal temporary pump station was 88
kVA; the Orleans Avenue Canal temporary pump station was 73 kVA; and the London
Avenue Canal temporary pump station was 71 kVA, on each side of the canal as shown
in electrical service calculations.
Switches, panels, and generator sizes for all the stations were verified and found that the
fused main disconnects, panels, automatic transfer switches, and service and branch
cables were correctly sized for the full load of the pump stations. Calculations showed
that the backup generator was correctly sized at 100 kVA for loads of 88 kVA, 73 kVA,
and 71 kVA per side of the pump stations. In each station, there were additional 100 kVA
generators configured to take over the backup generators in event of a backup generator
failure.
The electrical lighting was examined, and it was noted that the lighting fixtures over the
engine platforms were of the vapor proof fluorescent type fixtures. These fixtures are for
wet areas, but they are not designed for hurricane force conditions. Therefore, they could
potentially fall and destroy critical components of the pump.
The pole mounted light fixtures along the bridges and walkways designated Type F6 in
the construction drawings are not designed for hurricane force conditions. Therefore, they
could become flying debris.
The instrumentation and control systems were checked. The system uses a local area
network architecture linking all the local control panels to a supervisory control and data
acquisition (SCADA) system with multimode fiber optic cables. This architecture allows
communication between control panels and the SCADA system using the Modbus
messaging protocol. The network is a ring network topology allowing for media
redundancy. All hydraulic pumping systems are equipped with local controls that are
autonomous and do not entirely rely on the SCADA system for control. Therefore, they
provide redundancy to the entire control system.
The USACE temporary pump stations are connected to the SWB pump stations upstream
of the canals via fiber optic cables. This allows bidirectional control of the USACE
temporary pump stations from either the SWB pump stations or the USACE temporary
pump stations. The communication system is further supported with redundancy using a
microwave radio communication local area network transmitting at 11 gigahertz (GHz).
This wireless medium provides transmission of SCADA functions over Ethernet, voice
over Internet Protocol (IP), and video surveillance to observe functionality of pumps and
gates. This arrangement provides an effective multipoint to point transmission system to
communicate between the temporary outflow pump stations and SWB stations using
Ethernet over the wireless system. For further redundancy in voice communications, the


                                      Final Report
Parsons                                  3 - 11                         February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis

temporary pump stations operational staff is equipped with satellite phones and police
band radio sets as well, totaling to 4 different methods of voice communications.
3.8.3      Structural
A limited evaluation of the existing structural systems was performed at 17th Street,
London Avenue, and Orleans Avenue Canal outfalls. The evaluation is based on onsite
observation for condition assessment and cursory analysis of the primary landside
support systems. The systems observed and their associated evaluations are as follows:
Landside Support Structure and Building: The supporting structures for the pumping
systems consist of steel pipe piles at 17th Street and H-piles at both Orleans Avenue and
London Avenue. Visual observation of these structures indicates that their condition is
satisfactory although no protective coatings were used. A cursory analysis indicates that
the gravitational capacity of the floor system meets or exceeds the requirements of the
ASCE 7-02 recommendations. ASCE 7-02 is the applicable standard for this installation
which provides minimum design loads for buildings and other structures. The wind loads
used for the pre-engineered building were also evaluated. Again, the loads used met or
exceeded ASCE 7-02 recommendations.
Control Room: During emergency response events, the operators occupy the control
room at each of the subject canal pumping stations. The room is constructed of thick
concrete walls, heavy steel doors, and the air conditioning unit that is hardened with steel
framing providing protection from wind pressures and flying debris. These evidential
observations indicate that the control room meets or exceeds the minimum requirements
for wind protection.
Erosion Protection: A cursory review of the general configuration and activities
conducted relating to the erosion protection before and after the flood wall was included
in this review. The erosion protection consists of rip-rap protection ranging from 2 to 4
feet in thickness over a soil cement substrate. It is the Parsons team’s opinion that due
diligence was exercised in this effort.
Windborne Debris: The landside station hydraulic drive systems are somewhat
protected by a chain link fence that surrounds the platform. The waterside hydraulic
drive systems at the 17th Street Station are unprotected. Given the excess capacity at the
17th Street station this exposure risk is mitigated. The chain link protection is
unsupported between the column supports. Additional support for the chain link fence
would improve its flying debris protective benefit.
3.8.4      Operational
The operational procedures for the temporary pump systems were reviewed with the HPO.
The operational procedures include continuous communication with the New Orleans
SWB representative at the upstream pump station. Communications, as described in the
Electrical Section of this report, includes redundant systems including fiber-optic line
connections, radio, microwave and out-of-state cell phones.
A review of the Operations Instruction Manual (OIM) indicates that the procedures in
place meet expectations for pre-storm, storm and post-storm activities. Substantially, the
OIM provides detailed descriptions for the following:


                                      Final Report
Parsons                                  3 - 12                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                        Vulnerability Analysis

   •    Safe canal levels
   •    Gate closure
   •    Pumping activities
   •    Organizational and chain of command structure
   •    Fuel supply
   •    Electrical power
   •    Water level controls
   •    Equipment failure and diagnostic procedures
   •    Reporting and logging protocol
It is the Parsons team’s opinion that the collaboration between the HPO and the SWB is
essential to successful operations of the flood control system. Substantially, the
cooperative operation of the two pumping systems tends to create a condition whereby
the rise in canal levels between the stations reduces overall pumping capacity of the SWB
due to the increased tailwater while increasing the capacity of the Temporary Pump
Stations due to the reduction in total dynamic head. Historical data regarding the Gustav
and Ike events indicates that the operational plan was successful.
3.8.5      Maintenance
The maintenance plan was reviewed using the check list provided by the HPO to the
Parsons team. The plan indicates elements of the system that are checked and the
frequency of those verifications. The plan includes checks of the following elements of
the system:
   •    Engine before start
   •    Hydraulic system
   •    Engine pre-start
   •    Hydraulic system after start before engaging
   •    Hydraulic system after start and after engaging
   •    SCADA system
This review indicates that the primary pump system components are subject to
verification and a log of the operating record is maintained to document performance.
The performance logs for all hydraulic pumping systems including their support systems
were provided by HPO. This performance log indicates that only minor corrections have
been required since the completion of the installation acceptance testing.
The maintenance program is sufficient for its intended purpose with regard to the
machinery elements. In order to maintain, reliability of diesel drives and hydraulic
pumping units, periodic operation of the system is recommended by the manufacturer.
The Parsons team understands that the systems are started every 2 weeks during the


                                      Final Report
Parsons                                  3 - 13                       February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                            Vulnerability Analysis

hurricane season and once per month during the off season.               This is considered
satisfactory for maintaining the reliability of the system.
There is no indication that a subsurface monitoring program is currently in place.
Pumping systems, especially those in salt water or brackish water conditions, should be
checked periodically to verify that excessive corrosion has not occurred. Additionally,
the erosion protection system (rip-rap upstream and downstream) cannot be verified
without the benefit of subsurface monitoring. Finally, as indicated in the Section 2,
Testing Adequacy Analysis of this report, periodic visual inspection of the pump
impellers to verify that excessive wear has not occurred as a function of the potential
vortices is not included in the maintenance program. The Parsons team suggests that
subsurface monitoring could be useful to the maintenance program. Typically, this could
be conducted before each hurricane season and in time to enact mitigation actions, if
necessary.
The current logging effort is conducted using a local data base and the forms as prepared
by HPO. We understand that the HPO is currently preparing to participate in a computer
based maintenance management system called the USACE Facilities & Equipment
Maintenance System (FEM) that will allow for tracking trends associated with the
reporting of maintenance and operational activities. It is the Parsons team’s opinion that
the use of this program, properly applied, will increase the reliability and predictability of
the system.
No significant vulnerabilities were identified with regard to the existing maintenance
program.

3.9     Conclusions
3.9.1      Mechanical
The Parsons team conclusions for mechanical systems vulnerability are as follows:
•   The design rainfall event used to size the temporary canal pump stations has peak
    flow duration on the order of 4 to 6 hours and this criterion limits substantially the
    duration needed for the peak pumping rate.
•   Installed pumping capacity at the 17th Street, the Orleans Avenue, and London
    Avenue pumping station meets or exceeds the service intended.
•   The diesel engines are appropriately sized and are suitable for their intended use.
•   The Denison hydraulic pump and motor, despite earlier issues with the cam wear and
    selection, are sized correctly and are demonstrating a high level of reliability
    evidenced by the recent performance during the Gustav and Ike storm events.
•   The applicable standard for the power transmission piping (hydraulic oil) is the
    ASME B31, 31.3. Pipe thickness calculations were completed based on the guidance
    within B31, 31.3 as was appropriate and sufficient.
•   The Rineer motor driving the water pump experienced the pulsing conditions during
    the acceptance testing period. The replacement of the spring system appears to have


                                       Final Report
Parsons                                   3 - 14                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis

    rectified that issue and their performance appears to be suitable for their intended
    purpose.
3.9.2      Electrical
Parsons team’s conclusions for electrical systems vulnerability are as follows:
•   It is the Parsons team’s opinion the electrical distribution and double backup systems
    are capable of full power and standby power distribution for the hydraulic pumps,
    which fully complies with the National Fire Protection Association (NFPA) Code 70
    for all three stations.
•   The vulnerability of the light fixtures is not detrimental to the operation of the
    temporary pump station. The asset risk level, for both the fluorescent fixtures and the
    pole mounted fixtures are determined at Level 3c.
•   It is the Parsons team’s opinion that there is enough redundancy in the
    communications system for effective, reliable communication, and control of the
    interim pump stations during an emergency response.
3.9.3      Structural
Parsons team’s conclusions for structure and building vulnerability are as follows:
•   The landside support structure and building were reviewed for capacity and compared
    to the requirements of ASCE 7. This evaluation indicates that the structures meet or
    exceed the minimum requirements for design loads as prescribed by ASCE 7.
•   The Control Room was observed during a site visit and the construction is consistent
    with the requirements for wind load resistance as required by ASCE 7.
•   The erosion protection system for the flood gates is consistent with industry standards
    for structures of this type.
•   There are no apparent vulnerabilities associated with the structural system as
    designed and constructed.
3.9.4      Operational
Parsons team’s conclusions for operational vulnerability are as follows:
•   The operations requirements are outlined in the OIM. This manual indicates due
    diligence was exercised in its creation.
•   The operations protocol includes close coordination between USACE and the SWB
    during storm events.
•   This, coupled with redundant communications systems indicates that no apparent
    vulnerabilities are associated with the operational plan and implementation program.
3.9.5      Maintenance
Parsons team’s conclusions for maintenance vulnerability are as follows:
•   The maintenance program is outlined in the form of a checklist for the mechanics to
    follow during routine maintenance of the pumping systems. This outline appears to

                                      Final Report
Parsons                                  3 - 15                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis

    satisfactorily meet the objective of proper mechanical maintenance and is considered
    satisfactory for maintaining the reliability of the system.
•   The plan does not indicate a subsurface monitoring system that is considered
    beneficial to verifying that the structures below the water surface are not exhibiting
    excessive corrosion, excessive degradation of pump components and is also
    considered beneficial to verifying that the erosion protection system has not degraded.

3.10 2008 Performance during Hurricanes Gustav and Ike
The Parsons team reviewed the Temporary Outflow Canal Pumps performance reports
for the two hurricanes Gustav and Ike and gathered the following information:
3.10.1     Hurricane Gustav
On August 31, 2008, Hurricane Gustav made landfall, but New Orleans escaped the full
force of the hurricane as the storm entered near the town of Cocodrie, Louisiana. The
hurricane was a Category 2 storm, but the Louisiana coast experienced torrential rain and
high winds of approximately 100 mph, which generated a storm surge in Lake
Pontchartrain.
The USACE team received orders the next day to close the canal gates at the temporary
outflow canal pump stations, cutting off the canals outflow to Lake Pontchartrain in
anticipation of the storm surge associated with the high winds.
The records from USACE show that at the London Avenue Canal’s temporary pump
station all of the hydraulic and direct drive pumps were put into service. The total flow
from the SWB pumps was 5,050 cfs on that day. With both, the hydraulic pumps and the
direct drive pumps running at the London Avenue Canal pump station, the total flow
pumped into Lake Pontchartrain was 5200 cfs, reducing the level of the canal down to a
safe level. The London Avenue Canal temporary pump station ran for 27 minutes,
matching the discharge from the SWB and maintained a safe water level in the London
Avenue Canal. After the first 27 minutes, 4 hydraulic pumps were shut down as the canal
level got too low for the pumps to function efficiently. The 4 hydraulic pumps were
started again after 48 minutes and all pumps ran for another 55 minutes before the 4
hydraulic pumps were shut down again due to low levels in the canal. The hydraulic
pumps ran for 3 days intermittently with various numbers of pumps taken in and out of
service to control the canal level with the gates shut for 36 hours. Out of the 12 hydraulic
pumps in service, 2 pumps were taken out of service due to minor malfunctions. The
fault on one was a disconnected control wire, and the second was a loose flange bolt.
There were no pump mechanical malfunctions. These pumping activities are summarized
in Table 3-10.
The records show that at the 17th Street Canal temporary pump station and all of the
hydraulic and direct drive pumps, except the portable pumps, were put into service. The
total flow from the SWB pumps was approximately 5,050 cfs. With all available pumps
running at the 17th Street Canal’s temporary pump station (the portable pumps were not
included), the total flow pumped into Lake Pontchartrain was approximately 7,240 cfs.
The 17th Street Canal temporary pump station ran for 52 minutes, matching the discharge
from the SWB and kept the level of the 17th Street Canal at a safe level. After the 52

                                      Final Report
Parsons                                  3 - 16                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                         Vulnerability Analysis

minutes, all direct drive pumps, with the exception of 2 pumps, were taken out of service,
leaving all hydraulic pumps running for 1 hour. As the canal water level dropped, the 2
direct drive pumps were taken out of service leaving all hydraulic pumps running. The
hydraulic pumps ran for 2 days intermittently with various numbers of pumps taken in
and out of service to control the canal level with the flood gates shut for a total of 18
hours. Out of the 18 hydraulic pumps in service, 1 hydraulic pump was taken out of
service due to a hydraulic leak on a drive unit. There were no other pump mechanical
malfunctions. These pumping activities are summarized in Table 3-11.
3.10.2     Hurricane Ike
On the morning of September 12, 2008, Hurricane Ike approached landfall as a Category
3 wind force generating a storm surge in Lake Pontchartrain of approximately 5.2 feet.
The records show that the USACE team experienced rain and winds of around 25 mph at
the temporary pump stations, when they received orders to close the canal gates cutting
off the canal’s outflow to Lake Pontchartrain.
Records show that the west bank direct drive pumps were put into service at the London
Avenue Canal temporary pump station. The total flow from the SWB pumps was
approximately 1,000 cfs, with the pumps running at the London Avenue Canal temporary
pump station; the total flow pumped into Lake Pontchartrain was approximately 1,200 cfs.
The London Avenue Canal temporary pump station ran for 58 minutes, matching the
discharge from the SWB and kept the level of the London Avenue Canal at a safe level.
After the first 58 minutes, 2 direct drive pumps were shut down as the canal water level
dropped too low for the pumps to function efficiently. An hour and 10 minutes later, 6
hydraulic pumps were started again and ran for another 35 minutes before the hydraulic
pumps were shutdown again as the canal level got low. The hydraulic pumps ran for 4
days intermittently with various numbers of pumps taken in and out of service to control
the canal level with the gates shut for 60 hours. There were no pump malfunctions
during this hurricane event, as can be seen in Table 3-12.
Records show that at the 17th Street Canal temporary pump station, 10 direct drive
pumps, and 6 hydraulic pumps were put in service. The total flow from the SWB pumps
was 4,500 cfs, with 10 direct drive pumps and 6 hydraulic pumps running at the 17th
Street Canal temporary pump station, the total flow pumped into Lake Pontchartrain was
5,200 cfs. The hydraulic pumps ran for 2 days intermittently with various numbers of
pumps taken in and out of service to control the canal level with the gates shut for 36
hours. Out of the 18 hydraulic pumps in service, 1 hydraulic pump was taken out of
service due to a hydraulic hose leak on a drive unit. There were no other pump
mechanical malfunctions, as can be seen in Table 3-13.
Records show that while the storm surge was not enough to close the gates at the Orleans
Avenue Canal, the USACE canal team decided to take advantage of the water levels to
exercise the pumps and 10 hydraulic pumps were put in service at the Orleans Avenue
Canal pump station. The 5 east bank pumps were put in service first and ran for 3 hours,
the total flow pumped into Lake Pontchartrain was 1,044 cfs. After 3 hours, the pumps
were taken out of service and the west bank pumps were put in service and ran for 3
hours at 1,054 cfs. The hydraulic pumps ran for two periods of 3 hours each. Total


                                      Final Report
Parsons                                  3 - 17                        February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                         Vulnerability Analysis

amount of water pumped at this facility was over 22 million gallons in this period without
any pump major malfunctions with the 10 pumps. One HPU experienced a high
temperature oil indication that turned out to be an electrical short circuit. This was
repaired and the HPU was put back in service. These pumping activities are recorded in
Table 3-14.
3.10.3     Conclusions
Parsons team’s conclusions area as follows:
   1. During Hurricane Gustav the following occurred:
       •   Two pumps at the London Avenue Canal temporary pump station had minor
           malfunctions, one a loose bolt and the second, a loose control wire.
       •   A direct drive pump and a hydraulic pump at the 17th Street Canal temporary
           pump station had minor malfunctions; the direct drive experienced a loose
           control wire, and the hydraulic pump experienced a leak in the hydraulic drive
           unit hose.
   2. During Hurricane Ike the following occurred:
       •   There were no pump malfunctions at the London Avenue Canal temporary
           pump station during the hurricane.
       •   One hydraulic pump experienced a failure in the hydraulic hose at the 17th
           Street Canal temporary pump station.
   3. Pump Activities during Hurricane Gustav:
       The pump activities during Hurricane Gustav are summarized in Tables 3-10, and
       3-11. As shown in Tables 3-10 and 3-11, the total number of hydraulic pump
       hours for London Avenue was 105.3 pump hours and for the 17th Avenue was
       224.5 pump hours. The total number of direct drive pump hours for London
       Avenue was 75.2 pump hours and for the 17th Avenue was 28 pump hours. As
       shown in both pump stations values, the hydraulic pumps were mainly used to
       bring the canal levels down. It took 3 hours to bring the canal down by 2 feet.
   4. Pump Activities during Hurricane Ike:
       The pump activities during Hurricane Ike are summarized in Tables 3-12 and 3-13.
       As shown in Tables 3-12 and 3-13, the total number of hydraulic pump hours for
       London Avenue was 15.93 pump hours and for the 17th Avenue was 28.6 pump
       hours. The total number of direct drive pump hours for London Avenue was 60
       pump hours and for the 17th Avenue was 76.4 pump hours. As shown in both
       pump station tables, the direct drives were used more than the hydraulic pumps to
       bring the canal levels down.
In Hurricane Gustav, two stations pumped a total of more than 1.7 billion gallons of
water (pump rates were quoted by the USACE) into Lake Pontchartrain with two
hydraulic pumps experiencing minor malfunctions. In Hurricane Ike, the two stations
pumped a total of approximately half a billion gallons of water (pump rates were quoted



                                      Final Report
Parsons                                  3 - 18                        February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                          Vulnerability Analysis

by the USACE) into Lake Pontchartrain with one hydraulic pump experiencing a
malfunction.
During Hurricane Ike the hydraulic pumps at the Orleans Avenue Canal Pump Station
were tested for performance. The gates were not shut as the canal was at a safe level of
5.2 feet. The pumps were tested successfully with pumps running at near maximum
output with one minor malfunction.
Minor pump malfunctions are expected for a large group of pumps such as this
installation. The industry MTBF (mean time between failures) ANSI standard for a
single axial pump continually running is 2.5 years between failures in the U.S. This
means it is expected that a single axial pump continuously running will breakdown within
a 2.5-year period. With hydraulic pumps, one can expect a much lower MTBF value as
additional drive components (besides the engine prime mover) such as the hydraulic drive
unit adds to the probability of failure. It can be expected that a hydraulic-driven pump
will have a lower MTBF, and it will be more prone to failures than a single prime mover
pump. However, these pumps will be used infrequently versus one that will run
continuously for 2.5 years. This will, therefore, inevitably prolong the life of the pump to
a much greater extent than a standard continuously running pump.
HPO Interim Closure Structure (ICS) Records also show that randomly selected pumps
ran at near the recommended 3,200 psi hydraulic pressure, proving that these pumps are
capable of the recommended pressures. Most of the pumps ran at an average of 80 to
95% of the recommended pressure. While these pumps are capable of the recommended
extents, it is not normal practice in all industries to run machinery at maximum
performance. This is inefficient and causes undue mechanical stress to any mechanical
system, which will result in premature failure of components.
The Parsons team is satisfied that the pumps have functioned to industry standards, and
the team is confident that the pumps will perform as designed and constructed to cope
with the design rainfall event.




                                      Final Report
Parsons                                  3 - 19                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                     Vulnerability Analysis



                 Table 3-10—London Avenue ICS – Hurricane Gustav Outfall Canal Closure Activities




                                                   Final Report
Parsons                                               3 - 20                                        February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                           Vulnerability Analysis



                   Table 3-11—17th Street ICS – Hurricane Gustav Outfall Canal Closure Activities




                                                   Final Report
Parsons                                               3 - 21                                            February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                      Vulnerability Analysis



                   Table 3-12—London Avenue ICS – Hurricane Ike Outfall Canal Closure Activities




                                                   Final Report
Parsons                                               3 - 22                                       February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                          Vulnerability Analysis


                     Table 3-13—17th Street ICS – Hurricane Ike Outfall Canal Closure Activities




                                                    Final Report
Parsons                                                3 - 23                                          February 27, 2009
Independent Engineering Assessment of the
New Orleans Temporary Outfall Canal Pumps                                                       Vulnerability Analysis


                   Table 3-14—Orleans Avenue ICS – Hurricane Ike Outfall Canal Closure Activities




                                                   Final Report
Parsons                                               3 - 24                                        February 27, 2009
